No. _______
In The

Supreme Court of the United States
-------------------------- ♦ ---------------------------

RITA MCDANIEL, Individually and as
Personal Representative of the Estate
of Johnny F. McDaniel, Deceased,
Petitioner,
v.

UPSHER-SMITH
LABORATORIES, INC.,
Respondent.
-------------------------- ♦ --------------------------

ON PETITION FOR WRIT OF CERTIORARI TO
THE UNITED STATES COURT OF APPEALS
FOR THE SIXTH CIRCUIT
-------------------------- ♦ --------------------------

PETITION FOR WRIT OF CERTIORARI
-------------------------- ♦ -------------------------E. Kirk Wood, Jr.
Counsel of Record
WOOD LAW FIRM, LLC
Post Office Box 382434
Birmingham, Alabama 35238
(202) 612-0243
kirk@woodlawfirmllc.com
Counsel for Petitioner

Samuel C. Cole
SAM COLE LEGAL
SERVICES, PLLC
6721 Kemper Drive
Plano, Texas 75023
(361) 649-2734
samcolelegalservices@gmail.com
Dated: October 31, 2018

THE LEX GROUPDC i 1050 Connecticut Avenue, N.W. i Suite 500, #5190 i Washington, D.C. 20036
(202) 955-0001 i (800) 856-4419 i www.thelexgroup.com

i
QUESTION PRESENTED
Rita McDaniel sued because Defendant failed
to ensure the distribution of an FDA-mandated
warning to her husband. Tennessee recognizes a tort
claim based on failure to warn. Parallel federal
regulations, 21 C.F.R. §§ 208.24(a), (b), require
Defendant to ensure that sufficient medication guides
are made available pharmacies or distributers for
distribution to patients. Defendant also misled Mr.
McDaniel’s doctor. The question presented is:
Whether a state-law, failure-to-warn claim
that parallels a defendant’s failure to follow FDA
labeling regulations is impliedly preempted?

ii
PARTIES TO THE PROCEEDING
Petitioner Rita McDaniel was the plaintiff in
the district court and appellant in the Sixth Circuit.
Respondent Upsher-Smith Laboratories, Inc.
was the defendant in the district court and the
appellee in the Sixth Circuit.


iii
TABLE OF CONTENTS
Page
QUESTION PRESENTED .......................................... i
PARTIES TO THE PROCEEDING ........................... ii
TABLE OF CONTENTS............................................iii
TABLE OF AUTHORITIES ...................................... vi
OPINIONS BELOW ................................................... 1
JURISDICTION ......................................................... 1
RELEVANT CONSTITUTIONAL
REGULATORY & STATUTORY
PROVISIONS.............................................................. 1
INTRODUCTION ....................................................... 1
STATEMENT OF THE CASE ................................... 3
A.

Background facts ................................... 3

B.

The district court holds that
McDaniel’s failure-to-warn-viaMedication-Guide
claim
is
preempted .............................................. 4

C.

The Sixth Circuit affirms, holding
that McDaniel’s failure-to-warnvia-medication-guide claim is
preempted .............................................. 5

iv
D.

Chief Judge R. Guy Cole dissents......... 7

E.

Proceedings after decision .................... 9

REASONS FOR GRANTING THE WRIT ............... 10
I.

The Sixth Circuit’s Decision Is
Inconsistent With Decisions Of
Other Courts Of Appeals .................... 10

II.

The Question Presented Is
Important And Recurring ................... 19

III.

The Sixth Circuit’s Decision Is
Wrong................................................... 21

CONCLUSION ......................................................... 26
APPENDIX:
Published Opinion and Judgment of
The United States Court of Appeals
For the Sixth Circuit
entered June 29, 2018 ......................... 1a
Order and Judgment of
The United States District Court
For the Western District of Tennessee
Re: Granting Defendant’s Motion to Dismiss
entered May 25, 2017 ........................ 22a
Order of
The United States Court of
Appeals For the Sixth Circuit
Re: Denying Petition for Rehearing En Banc
entered August 2, 2018 ..................... 33a

v
Amended Complaint
entered February 6, 2017 .................. 35a
Exhibit to Plaintiff’s Motion for
Certificate of Appealability
entered February 6, 2017:
1.

Order of
The United States District
Court For the Western
District of Tennessee
Re: Granting in Part and
Denying in Part Defendant’s
Motion to Dismiss
entered January 26, 2017 .. 83a

U.S. CONST. art. IV ....................................... 96a
21 U.S.C. § 337(a) ........................................ 96a
21 C.F.R. §§ 208.24(a), (b)............................ 97a
Tentative Calendar Order of
The United States Court of Appeals
For the Fourth Circuit
Re: Bean v. Upsher-Smith Pharmaceuticals
entered August 3, 2018 ..................... 98a
Tentatively Calendared Case Continued Order
of The United States Court of Appeals
For the Fourth Circuit
Re: Bean v. Upsher-Smith Pharmaceuticals
entered October 16, 2018 ................ 100a


vi
TABLE OF AUTHORITIES
Page(s)
CASES
Allain v. Wyeth Pharm., Inc.,
2015 U.S. Dist. LEXIS 83676
(N.D. Ala. June 29, 2015) .............................. 20
Allergan, Inc. v. Athena Cosmetics, Inc.,
738 F.3d 1350 (Fed. Cir. 2013) ................ 10, 11
Bausch v. Stryker Corp.,
630 F.3d 546 (7th Cir. 2010) ........ 13, 14, 15, 17
Bean v. Upsher-Smith Pharm., Inc.,
2017 U.S. Dist. LEXIS 160483
(D.S.C. Sep. 29, 2017) .................................... 20
Blue Cross & Blue Shield v.
AstraZeneca Pharm. LP
(In re Pharm. Indus. Average
Wholesale Price Litig.),
582 F.3d 156 (1st Cir. 2009) .................... 17, 18
Buckman Co. v. Plaintiffs’ Legal Comm.,
531 U.S. 341 (2001) ................................ passim
Caughron v. Upsher-Smith Labs., Inc.,
2017 U.S. Dist. LEXIS 103416
(E.D. Ark. July 5, 2017) ................................. 20

vii
Chamber of Commerce of the United States v.
Whiting,
563 U.S. 582 (2011) ........................................ 23
Connolly v. Sandoz Pharm. Corp.,
2014 U.S. Dist. LEXIS 190163
(N.D. Ga. Dec. 23, 2014) ................................ 20
Couick v. Wyeth, Inc.,
2009 U.S. Dist. LEXIS 113943
(W.D.N.C. Dec. 7, 2009) ................................. 16
Desiano v. Warner-Lambert & Co.,
467 F.3d 85 (2d Cir. 2006) ............................. 18
Eckhardt v. Qualitest Pharm., Inc.,
751 F.3d 674 (5th Cir. 2014) .................... 12, 13
Elliott v. Sandoz, Inc.,
2016 U.S. Dist. LEXIS 109609
(N.D. Ala. Aug. 18, 2016) ............................... 20
Fellner v. Tri-Union Seafoods, L.L.C.,
539 F.3d 237 (3d Cir. 2008) ..................... 18, 19
Fulgenzi v. PLIVA, Inc.,
711 F.3d 578 (6th Cir. 2013) ........................ 6, 8
Hernandez v. Wyeth-Ayerst Labs., Inc.,
2017 U.S. Dist. LEXIS 58743
(N.D. Ill. Apr. 18, 2017) ................................. 20
Hughes v. Boston Scientific Corp.,
631 F.3d 762 (5th Cir. 2011) .................... 12, 13

viii
Lefaivre v. KV Pharm. Co.,
636 F.3d 935 (8th Cir. 2011) .................... 15, 16
Martinez v. Teva Pharm. USA, Inc.,
2018 U.S. Dist. LEXIS 127697
(S.D. Tex. July 31, 2018) .......................... 13, 20
Marvin v. Zydus Pharm. (USA) Inc.,
203 F. Supp. 3d 985 (W.D. Wis. 2016)........... 20
McClellan v. I-Flow Corp.,
776 F.3d 1035 (9th Cir. 2015) .................. 16, 17
McLeod v. Sandoz, Inc.,
2017 U.S. Dist. LEXIS 48621
(D.S.C. Mar. 31, 2017) ................................... 20
Mitchell v. Wyeth Pharm., Inc.,
2017 U.S. Dist. LEXIS 73276
(W.D. Tex. Jan. 19, 2017) .............................. 20
Monk v. Wyeth Pharm., Inc.,
2017 U.S. Dist. LEXIS 72477
(W.D. Tex. May 11, 2017) ........................ 13, 20
Moore v. Zydus Pharm. (USA), Inc.,
277 F. Supp. 3d 873 (E.D. Ky. 2017) ............. 20
Perdue v. Wyeth Pharm., Inc.,
209 F. Supp. 3d 847 (E.D.N.C. 2016) ............ 20
PLIVA, Inc. v. Mensing,
564 U.S. 604 (2011) .......................... 7, 8, 22, 23

ix
Polt v. Sandoz, Inc.,
No. 2:16-cv-02362-ER, Doc. 58
(E.D. Penn. July 10, 2017) ............................. 20
Priest v. Sandoz, Inc.,
2016 U.S. Dist. LEXIS 186635
(W.D. Tex. Dec. 29, 2016) .............................. 20
Rice v. Santa Fe Elevator Corp.,
331 U.S. 218 (1947) .......................................... 2
Riegel v. Medtronic, Inc.,
552 U.S. 312 (2008) ........................................ 21
Rusk v. Wyeth-Ayerherst Labs., Inc.,
2015 U.S. Dist. LEXIS 75557
(W.D. Tex. June 11, 2015) ............................. 20
Tutwiler v. Sandoz Inc.,
2017 U.S. Dist. LEXIS 122325
(N.D. Ala. Aug. 3, 2017) ................................. 20
Wells v. Wyeth Pharm., Inc.,
2017 WL 8182749 (W.D. Tex. Apr. 12,
2017), report and recommendation
adopted, 2017 WL 8182839 (W.D. Tex.
May 23, 2017) ................................................. 20
Wyeth v. Levine,
555 U.S. 555 (2009) ...................... 16, 21, 22, 23
CONSTITUTIONAL PROVISION
U.S. CONST. art. VI ..................................................... 1

x
STATUTES
21 U.S.C. § 337(a) ....................................................... 1
21 U.S.C. § 360k(a)(1) ............................................... 21
28 U.S.C. § 1254(1) ..................................................... 1
28 U.S.C. § 1332.......................................................... 4
RULES
FED. R. CIV. P. 12(b)(6).............................................. 25
U.S.C.S. SUP. CT. R. 13(1) ........................................... 9
U.S.C.S. SUP. CT. R. 13(3) ........................................... 9
REGULATIONS
21 C.F.R. § 208.24(a) ............................................... i, 1
21 C.F.R. § 208.24(b) ............................................... i, 1

1
PETITION FOR WRIT OF CERTIORARI
Petitioner,
Rita
McDaniel,
respectfully
petitions this Court for writ of certiorari to review the
judgment of the United States Court of Appeals for
the Sixth Circuit.
OPINIONS BELOW
The opinion of the court of appeals (Pet.App.1a)
is reported at 893 F.3d 941. The opinion of the district
court dismissing McDaniel’s failure-to-warn claim
(Pet.App.83a) is reported at 229 F. Supp. 3d 707.
JURISDICTION
The court of appeals denied rehearing en banc
on August 2, 2018. (Pet.App.33a). This Court has
jurisdiction under 28 U.S.C. § 1254(1).
RELEVANT CONSTITUTIONAL,
REGULATORY, & STATUTORY PROVISIONS
This case involves U.S. Const., art. VI, 21
U.S.C. § 337(a), and 21 C.F.R. §§ 208.24(a), (b).
INTRODUCTION
This Court should grant certiorari to address
the important question of constitutional law
presented here, on which the Sixth Circuit has
diverged from other courts of appeal.
Unlike other courts of appeals, the Sixth
Circuit interpreted this Court’s decision in Buckman

2
Co. v. Plaintiffs’ Legal Comm., 531 U.S. 341 (2001) to
preclude a state-law claim mirroring a violation of
federal FDA regulations. In Buckman, the plaintiffs
pursued “fraud-on-the-FDA” claims against a
medical-device manufacturer. Buckman, 531 U.S. at
343. They maintained they were injured when the
manufacturer lied to the FDA. Id. This claim did not
exist under state law, so there was no “presumption
against preemption.” See id. at 347 (quoting Rice v.
Santa Fe Elevator Corp., 331 U.S. 218, 230 (1947))
(“Policing fraud against federal agencies is hardly ‘a
field which the States have traditionally occupied.’”).
Instead, the “existence of” the “federal enactments
[was] a critical element in their case” Id.at 353. The
Buckman Court concluded the Buckman plaintiffs’
claims were impliedly preempted. Id.
Most courts of appeals have held that Buckman
does not preempt state-law claims that parallel
federal regulations, even if the allegations mirror the
language of the federal regulation. Indeed, in the case
of medical devices, the allegations must track the
language of the federal regulation. The Sixth Circuit,
by contrast, held that McDaniel’s failure-to-warn
claim was preempted because it included an
allegation that Defendant failed to provide an FDAmandated warning effectively.
Regardless of how this Court rules, it’s
important for the courts of appeal to apply a
consistent standard. District courts have divided
evenly on the precise question presented. By settling
this issue, the Court would make the law more
predictable and reduce needless litigation.

3
Finally, as recognized by Chief Judge Cole, the
Sixth Circuit’s decision was incorrect and poorly
reasoned. It was inconsistent with the clear
implication of this Court’s precedent. If allowed to
stand, it will create problems for litigants in the Sixth
Circuit.
This Court should grant the petition, resolve
the newly-created circuit split, and reverse the Sixth
Circuit’s improperly broad interpretation of
Buckman.
STATEMENT OF THE CASE
A.

Background facts

Dr. James Kitzow originally diagnosed Johnny
F. McDaniel with non-life-threatening atrial
fibrillation. (Pet.App.46a ¶ 34). Under Defendant’s
influence, Dr. Kitzow prescribed McDaniel a 200mg
course of amiodarone tablets to treat his atrial
fibrillation. (Id.) McDaniel filled the prescription at
the Naval Branch Health Clinic with amiodarone
manufactured by Upsher-Smith. (Id.) Because he took
amiodarone, he suffered severe and debilitating
injury to his pulmonary system, which resulted in his
death on July 22, 2015, from amiodarone-induced
pulmonary toxicity. (Id. at 35a ¶ 1, 46a ¶ 34, 49a-51a
¶¶ 37-40).
The FDA requires manufacturers to ensure
consumers receive a warning called a “medication
guide.” But McDaniel did not receive a medication
guide when he filled his prescription, because UpsherSmith did not provide sufficient medication guides (or

4
the means of producing them) to the distributer or to
the Naval Branch Health Clinic where he filled his
prescription. (Id.) Had McDaniel received a
medication guide—which would have been an
adequate warning under Tennessee law—he would
not have taken amiodarone. (Id.) In failing to ensure
McDaniel received a medication guide, Defendant not
only violated its duty under FDA regulations but,
more importantly for Petitioner’s claim, fell short of
its duty to warn under Tennessee law.1
In her complaint, Petitioner alleged wrongful
death based on Defendant’s failure to warn when it
failed to ensure Mr. McDaniel received a medication
guide and misled his doctor. (Id. at 68a-71a ¶¶ 95-102,
73a-74a ¶¶ 110-113). Ms. McDaniel did not allege any
federal claims.
B.

The district court holds that
McDaniel’s failure-to-warn-viamedication-guide claim is
preempted.

The district court had diversity jurisdiction
under 28 U.S.C. § 1332. The district court held that
McDaniel’s
failure-to-warn
claim—paralleling
Defendant’s failure to provide a medication guide in
accordance with FDA regulations—was preempted. It
reasoned that the specific “requirement to provide a
medication guide is found in the FDCA.”
(Pet.App.92a). On the other hand, McDaniel had not
cited a requirement “to provide a medication guide
under Tennessee law.” (Id.) Instead, McDaniel relied
McDaniel’s doctor could not be a learned intermediary because
Defendant also misled him.

1

5
on the state tort principle of negligent failure to warn.
“Therefore, Plaintiff’s claims based upon failure to
warn due to failure to provide a medication guide are
preempted under Buckman.” (Id.)
C.

The Sixth Circuit affirms, holding
that McDaniel’s failure-to-warn-viaMedication-Guide claim is
preempted.

The Sixth Circuit affirmed, in a split decision.
It summarized the issue as follows: “We are tasked
with deciding whether the Federal Food, Drug, and
Cosmetics Act (‘FDCA’) impliedly preempts
McDaniel’s
Tennessee
failure-to-warn
claims
premised solely on Upsher-Smith’s failure to provide
the Medication Guide as required by FDA
regulations.” (Pet.App.2a)
Citing Buckman, the court concluded that the
FDCA impliedly preempted McDaniel’s state-law
failure-to-warn claims. (Id. at 6a). According to the
Sixth Circuit, “McDaniel seeks to enforce the federal
regulation requiring drug manufacturers to ensure
the availability of Medication Guides for distribution
to patients.” (Id.) The court cited portions of the
complaint and McDaniel’s brief in which she alleged
that the Upsher-Smith failed to warn by not providing
a medication guide—a warning mandated by the
FDA. (Id. at 6a-7a)
The court acknowledged that
claimed failure to warn under Tennessee
held that “McDaniel cannot salvage her
citing a generic state-law duty to warn.

McDaniel
law. But it
appeal” by
(Id. at 8a)

6
Conceding that there was such a generic duty to warn
under Tennessee law, the court explained that the
state law duty was broader than the federal duty.
“McDaniel . . . has pleaded that the ‘adequacy’ of
warnings to her husband is not the issue; the issue is
Upsher-Smith’s alleged failure to ensure the
Medication Guide’s availability for distribution” with
the result that Mr. McDaniel did not receive a
required warning. (Id. at 9a) Tennessee law “does not
create” a specific “duty to provide a Medication
Guide.” (Id.) Citing district court cases, the court also
concluded that “the majority of the district courts to
consider this very issue have found identical claims
preempted.”2 (Id. at 9a-10a)
The court rejected McDaniel’s argument that
Fulgenzi v. PLIVA controlled. Id. (citing Fulgenzi v.
PLIVA, Inc., 711 F.3d 578, 583 (6th Cir. 2013)). (Id. at
11a). In Fulgenzi, a plaintiff alleged that a generic
manufacturer failed to update its label, as required by
the FDA. Failure to update “rendered its warnings
inadequate under Ohio law.” (Id.) (quoting Fulgenzi,
711 F.3d at 581-82). The court distinguished Fulgenzi
by stating that “here, . . . adequacy of the warnings is
not at issue.” (Id. at 11a) Rather, the failure to provide
a Medication Guide at all “is the ballast steadying
McDaniel’s claim.” (Id. at 11a-12a)
The court similarly rejected McDaniel’s
argument that she had to plead a violation of federal
This is not, in fact, true, and it’s especially not true that the
“overwhelming weight of authority on this question tips the scale
toward preemption.” As shown infra, excluding the district
court’s opinion in this case, district courts have split 50-50 on
whether identical claims are preempted.

2

7
law to avoid preemption under PLIVA, Inc. v.
Mensing, 564 U.S. 604, 604 (2011). (Id. at 12a) In
Mensing, the plaintiffs alleged that a generic
manufacturer’s warning labels were inadequate.
“Here, McDaniel claims that her husband did not
receive the Medication Guide with his amiodarone
prescription.” (Id. at 13a) The court reasoned that
federal regulations must be essential to McDaniel’s
claims, because her allegations tracked the language
of the federal regulation. (Id. at 13a-14a).
The court declined to address the Defendant’s
learned intermediary argument, because it based its
holding on preemption. (Id. at 14a n. 3) The court also
declined to consider negligence per se, concluding
McDaniel had waived her negligence per se argument.
(Id. at 14a)
D.

Chief Judge R. Guy Cole dissents.

Chief Judge R. Guy Cole dissented in part.3 He
started with the words of McDaniel’s complaint.
McDaniel “states in her complaint that Upsher-Smith
failed to provide ‘sufficient instructions or warnings’
of the ‘potential risks and side effects of amiodarone’
by ‘failure to ensure [her late husband] was timely
provided the Medication Guide.’” (Pet.App.15a)
Adopting a plain-language reading of the complaint,
he takes “these words to mean what they say.” (Id.)
That is, McDaniel alleged that the failure to comply
with FDA regulations rendered the warnings
provided inadequate. (Id.)

Chief Judge Cole agreed that McDaniel had waived her
negligence per se argument.

3

8
He opined that the case was indistinguishable from
the Sixth Circuit’s decision in Fulgenzi. (Id. at 16a) In
both cases, the plaintiff alleged failure to adequately
warn of a drug’s risks. In Fulgenzi, the plaintiff
alleged that the defendant failed to warn by not
updating its labeling. In this case, McDaniel alleged
that the defendant failed to warn by not providing
medication guides. As in Fulgenzi, “McDaniel’s claims
are premised on a violation of an independent
Tennessee duty to warn, not federal law.” (Id. at 17a)
Because of Mensing, McDaniel could not allege
that Upsher-Smith should have changed its warnings
unilaterally. (Id.) She had to allege that Defendant
did not provide an FDA-mandated warning in the way
prescribed by the FDA. (Id.)
Chief Judge Cole rejected the majority’s
interpretation of plaintiff’s district court briefing. (Id.
at 18a) The majority had focused on a single line in
McDaniel’s briefing that “[t]he allegation is not one of
adequacy or ‘content’ failure to warn, (i.e., the
verbiage or even the format fails), but an actual and
physical negligent failure of Upsher-Smith to fulfill
its federally mandate to ensure Medication Guides
are available for distribution directly to patients with
each prescription.” (Id. at 18a).
Chief Judge Cole reasoned that this was an
error. First, when “faced with an apparent conflict
between the words in a complaint and a brief
responding to a motion to dismiss, [courts] are
obligated to choose the former.” (Id.) Second, the
majority’s interpretation of the brief was wrong.
“[C]ontext tells us that the purported concession in

9
the brief was meant to explain why the claim is not
barred by impossibility preemption.” (Id. at 18a-19a)
In other words, plaintiff made clear that she was not
attacking the medication guide’s language, which
Defendant could not change because of its duty of
sameness. She was only attacking Defendant’s failure
to provide the warning effectively. Under FDA
regulations, Defendant could not provide a different
warning or provide the warning in a way other than
the way laid out in the regulations.
Chief Judge Cole also rejected the application
of the learned intermediary doctrine. (Id. at 19a-20a)
Under Tennessee law, the learned intermediary
doctrine is a defense, rather than a common-law rule
delineating duty. (Id.) Because of this, McDaniel was
not required to “plead around” the defense at the
motion to dismiss stage. (Id. at 20a) McDaniel did not
plead all the elements of an impenetrable learned
intermediary defense. Indeed, she pleaded that her
husband’s doctor was not adequately warned. (Id.)
Thus, McDaniel’s “plausible claim to relief” was
“neither precluded by the learned intermediary
doctrine nor preempted by the FDCA.” (Id.)
E.

Proceedings after decision.

McDaniel timely moved for rehearing en banc.
On August 2, 2018, the Sixth Circuit rejected her
motion for rehearing. (Pet.App.33a) On October 31,
2018, McDaniel timely filed this petition for
certiorari. See USCS SUPREME CT R 13(1), (3) (petition
for certiorari must be filed within 90 days of the
denial of a petition for rehearing).

10
REASONS FOR GRANTING THE WRIT
I.

The Sixth Circuit’s Decision Is
Inconsistent With Decisions Of Other
Courts Of Appeals.

McDaniel sued Defendant for failure to warn
under Tennessee law, because Defendant did not
ensure the distribution of FDA-mandated medication
guides. The Sixth Circuit held that these “failure-towarn
claims”
were
“impliedly
preempted.”
Pet.App.6a. In doing so, the Sixth Circuit interpreted
the Court’s decision in Buckman more broadly than
other courts of appeals and ignored the presumption
against preemption. To restore uniformity among the
appeals courts, the Court should grant the petition
and reverse.
The Federal Circuit. The federal circuit, in
tension with the Sixth Circuit’s opinion below, has
held that a state health and safety claim is not
impliedly preempted, even when the state claim
mirrors federal regulations. Allergan, Inc. v. Athena
Cosmetics, Inc., 738 F.3d 1350, 1352 (Fed. Cir. 2013).
In Allergen, a cosmetics company sued another
cosmetics company for unfair competition in violating
a California health & safety statute. Id. The
California statute incorporated portions of the FDCA
by reference. Id. at 1353.
The defendant argued that the claim was
preempted because the California health & safety
statute directly incorporated portions of the FDCA.
Id. at 1354-55. Thus, according to the defendant, the

11
state law quite literally existed “solely by virtue of a
federal statute.” Id. at 1355.
The plaintiff, on the other hand, argued that
“there is no implied preemption where simultaneous
compliance with state and federal law is possible, and
the state law is not an obstacle to the realization of
federal goals.” Id.
The court agreed with the plaintiff. It
explained that “[t]he fact that the California Health
Code parallels certain FDCA provisions does not
mean that it does not implicate an historic state
power that may be vindicated under state law tort
principles. The Supreme Court acknowledged ‘the
historic primacy of state regulation of matters of
health and safety.’” Id. (citing Buckman, 531 U.S. at
348). Because there was no “clear purpose by
Congress” to preempt the claim, it was not preempted,
in light of the presumption against preemption. Id.
Allergan conflicts with the Sixth Circuit’s
decision below. In Allergen, the court held that a
state-law claim is not preempted merely because the
allegations track FDA regulations. The court below,
by contrast, held that McDaniel’s claims were
preempted because they alleged a violation of FDA
regulations, even though they were rooted in state
tort principles. Like the plaintiff in Allergen,
McDaniel sought to vindicate her rights under statelaw principles. By failing to ensure Mr. McDaniel
received a medication guide, the Defendant failed to
effectively warn under Tennessee law.

12
The Fifth Circuit. In Hughes v. Boston
Scientific Corp., a plaintiff alleged that a
manufacturer failed to warn about the dangers of a
medical device by failing to report adverse events to
the FDA in accordance with FDA regulations. 631
F.3d 762, 774–76 (5th Cir. 2011). Because the FDA
did not receive the adverse event notifications, the
plaintiff’s doctors did not receive them either. Id. at
766, 766 n. 2. There was no express state-law duty to
report adverse events to the FDA. But the Fifth
Circuit held that, “[t]o the extent that [plaintiff]
asserts a failure to warn claim based only on
[defendant’s] failure to comply with FDA regulations,
. . . such a claim is not expressly preempted.” Id. at
769.
The claim was also not impliedly preempted
under Buckman. The plaintiff sought “to prove
[defendant’s] breach of the state duty by showing that
[defendant] violated the FDA’s [Medical Device
Reporting] regulations.” Id. at 775. Thus, even though
the duty to report adverse events existed only by
virtue of the FDCA, the failure to report adverse
events was the way in which the defendant failed to
warn under state law. So, this claim was not
preempted. Id. at 775-76.
The Fifth Circuit reaffirmed this holding in
Eckhardt v. Qualitest Pharm., Inc., 751 F.3d 674, 679
(5th Cir. 2014). In dicta, the court explained that the
plaintiff “assert[ed] that he has alleged that the
Generic Defendants failed to provide [plaintiff] or his
physician with any of the FDA-approved warnings. As
failing to provide FDA-approved warnings would be a

13
violation of both state and federal law, this is a
parallel claim that is not preempted.” Id.
Hughes and Eckhardt plainly contradict the
Sixth Circuit’s interpretation of Buckman. The Sixth
Circuit held that “McDaniel’s Tennessee failure-towarn claims premised solely on Upsher-Smith’s
failure to provide the Medication Guide” were
preempted. (Pet.App.2a) By contrast, the Hughes
court held the Plaintiff’s failure-to-warn claims were
not preempted even though “they [were] based only
on [defendant’s] failure to comply with FDA
regulations.” Hughes, 631 F.3d at 769.
Texas district courts have cited Eckhardt to
hold that claims identical to McDaniel’s are not
preempted. Monk v. Wyeth Pharm., Inc., 2017 U.S.
Dist. LEXIS 72477, at *13 (W.D. Tex. May 11, 2017);
Martinez v. Teva Pharm. USA, Inc., 2018 U.S. Dist.
LEXIS 127697, at *6 (S.D. Tex. July 31, 2018)
(rejecting the Sixth Circuit’s decision below as
incompatible with Eckhardt).
The Seventh Circuit. In Bausch v. Stryker
Corp., the defendants argued that the plaintiff’s statelaw tort claims based on violations of FDA regulations
were “impliedly preempted under” Buckman. 630
F.3d 546, 556 (7th Cir. 2010).
The Seventh Circuit rejected this argument. Id.
Summarizing Buckman’s holding, the court observed
that
“the
Buckman
[C]ourt
specifically
distinguished . . . ‘fraud-on-the-agency’ claims, i.e.,
claims not related to a field of law that states had

14
traditionally occupied, from claims based on state law
tort principles.” Id. at 557.
The plaintiff, Bausch, observed that the
defendants “violated federal law in manufacturing” a
certain medical device because the device was
“adulterated.” Id. at 548. Borrowing the federal
definition of “adulterated”, Bausch alleged state-law
manufacturing defect claims. Id. at 557. The
defendants in Bausch argued “that Bausch’s claim
that the medical device was ‘adulterated’ must be
impliedly preempted because there is simply no state
tort duty to manufacture a product that is not
adulterated.” Id.
The Seventh Circuit rejected this reasoning,
explaining as follows:
While there may not be a “traditional
state tort law” claim for an “adulterated”
product in so many words, the federal
definition of adulterated medical devices
is tied directly to the duty of
manufacturers to avoid foreseeable
dangers with their products by
complying with federal law. The
evidence showing a violation of federal
law shows that the device is adulterated
and goes a long way toward showing that
the manufacturer breached a duty under
state law toward the patient.
Id. Thus, in light of the presumption against
preemption, the plaintiff’s claim was not prohibited

15
by Buckman, even though there was no state-law
“adulterated products” claim. Id.
The Seventh Circuit’s reasoning in Bausch
contradicts the Sixth Circuit’s reasoning below.
Similar to Bausch, there is no “traditional state tort
law” claim for failure to ensure a patient receives a
medication guide. But evidence showing that
Defendant failed to ensure the distribution of a
medication guide “goes a long way” toward showing
that Defendant failed to adequately warn under
Tennessee law.4 Unlike the court below, the Seventh
Circuit did not consider it relevant to preemption that
the federal statute applied more narrowly than the
state common law. By holding that McDaniel’s
tracking the language of the federal regulation was
fatal to her state-law claim, the Sixth Circuit placed
itself in direct conflict with the Seventh Circuit.
The Eighth Circuit. In Lefaivre v. KV Pharm.
Co., the plaintiff alleged that a manufacturer
“breached its implied warranty of merchantability
and violated the Missouri Merchantability Practices
Act (MMPA) by failing to manufacture . . . medication
in compliance with federal regulations.” 636 F.3d 935,
937 (8th Cir. 2011). The district court held that the
plaintiff’s “state law claims were preempted by
federal law because the claims were based entirely on
violations of federal regulations, and the enforcement

It’s obvious that a warning not calculated to reach its intended
recipient is ineffective under Tennessee law. Otherwise, a
manufacturer could circumvent its duty to adequately warn by
printing adequately-worded warnings in a size 2 font or in a dead
language.
4

16
of federal regulations is solely the province of the
federal government.” Id.
The Eighth Circuit disagreed. Examining this
Court’s opinion in Levine, the court observed that this
Court’s “comments . . . regarding drugs and drug
labeling strongly imply that field preemption does not
apply in the present case.” Id. at 941.
Nor did Buckman’s conflict preemption apply.
As this Court explained in Levine, “state law is
complimentary to federal drug regulation and serves
as an additional ‘layer of consumer protection.’ Id.
(quoting Levine, 555 U.S. at 579). The court then
rejected Buckman’s application, because the
plaintiff’s claims did not interfere with the FDA. Id.
at 944. It interpreted Buckman as applying only to
fraud-on-the-FDA claims. “[S]imply because conduct
violates the FDCA does not mean a state-law claim
based on that same conduct depends on the FDCA’s
existence.” Id. at 944 (quoting Couick v. Wyeth, Inc.,
2009 U.S. Dist. LEXIS 113943, at *15 (W.D.N.C. Dec.
7, 2009)).
This decision, too, plainly contradicts the
decision of the court below. In contrast to Lefaivre, the
Sixth Circuit held that a state-law claim other than
fraud-on-the-FDA (or another claim within a field
dominated by the federal government) was
preempted.
The Ninth Circuit. Although McClellan v. IFlow Corp. deals with negligence per se—which the
Sixth Circuit did not consider—its reasoning
indicates that the Ninth Circuit would disagree with

17
the opinion below. 776 F.3d 1035, 1040 (9th Cir.
2015). In McClellan, the plaintiff was injured by a
medical device manufactured by the defendant. Id. at
1037-38. She alleged state-law negligence and strict
products liability. Id. She sought a negligence per se
instruction based on federal law at trial, which the
district court held was preempted. Id. at 1039.
The court recognized that there was “no reason
not to apply the presumption against preemption.” Id.
at 1040. “Unlike the plaintiff in Buckman, [plaintiff]
has not alleged any fraud on the FDA. Instead,
[plaintiff] has alleged failure-to-warn theories that
are clearly concerned with the labeling and regulation
of medical devices.” Id. Buckman expressly left the
door open to state-law claims that “parallel” federal
regulations. It then pointed out that, in Bausch, “[t]he
Seventh Circuit recognized Buckman’s limitations in
holding that manufacturing defect claims were not
preempted even where they sought to borrow the
definition of ‘adulterated’ from the MDA.” Id. Thus,
the plaintiff’s negligence per se instruction was not
preempted.
Unlike McClellan, the Sixth Circuit attempted
to expand Buckman past its breaking point. It did not
consider Buckman’s context involving fraud-againstthe-FDA claims, and it did not address the
presumption against preemption.
Other Circuits. While other circuit courts of
appeal have not squarely addressed the issue before
this Court, they have strongly implied how they
would rule. Blue Cross & Blue Shield v. AstraZeneca
Pharm. LP (In re Pharm. Indus. Average Wholesale

18
Price Litig.), 582 F.3d 156, 176 (1st Cir. 2009);
Desiano v. Warner-Lambert & Co., 467 F.3d 85, 98 (2d
Cir. 2006); Fellner v. Tri-Union Seafoods, L.L.C., 539
F.3d 237, 248 (3d Cir. 2008).
In Blue Cross & Blue Shield, the court held
that Buckman addressed only a “narrow scenario: the
plaintiffs in that case employed a ‘fraud-on-theagency’ theory to attempt to create derivative
standing for their own suits, which were based in
state law but which sought remedies for fraudulent
misrepresentations made to the Food and Drug
Administration (‘FDA’) during the approval process
for certain medical devices.” Blue Cross & Blue
Shield, 582 F.3d at 176. Though the factual
circumstances of Blue Cross & Blue Shield are
inapplicable here, the court’s narrow reading of
Buckman contradicts the Sixth Circuit’s broad
reading.
Similarly, in Desiano, the court explained that
the Buckman Court was concerned that “policing
fraud on the FDA through a tort action could interfere
with how the FDA might wish to police that kind of
fraud itself.” Desiano, 467 F.3d at 93. The Buckman
court “ended by emphasizing that the plaintiffs’
claims before it were not rooted in traditional state
law.” Id. The Desiano distinguished Buckman from
cases in which the presumption against preemption
applies and the “vintage” of the duty arises from state
law. Id. at 95. If a claim is premised on traditional
duties between a manufacturer and consumers,
rather than “a newly concocted duty between a
manufacturer and a federal agency,” then it is not
preempted. Id. at 95-95.

19
Finally, in Fellner, the Third Circuit explained
that “it is hard to imagine a field more squarely
within the realm of traditional state regulation than
a state tort-like action seeking damages for an alleged
failure to warn consumers of dangers arising from the
use of a product.” Fellner, 539 F.3d at 248. This
statement is obviously in tension with the opinion
below, because the Sixth Circuit declined to consider
the presumption against preemption, even though
McDaniel alleged failure to warn under Tennessee
law.
The Sixth Circuit applied different law than
other circuits. First, it held that Buckman applies to
failure to warn, outside the context of fraud on the
FDA. Second, it improperly declined to apply the
presumption against preemption to a failure-to-warn
claim. This Court should intervene to resolve the clear
circuit split created by the Sixth Circuit’s decision.
II.

The Question Presented Is Important
And Recurring.

Until this Court clarifies the scope of Buckman,
district courts and courts of appeals will continue to
struggle with the question presented and analogous
questions. Currently, there are 17 cases pending
related to amiodarone alone, involving almost 300
plaintiffs. In most of these cases, the generic
manufacturer defendants have sought dismissal
based on implied preemption under Buckman.
Contrary to the Sixth Circuit’s tally, excluding
the district court’s opinion below, district courts have
split 50-50 on the specific issue of whether failure-to-

20
warn-about-amiodarone-via-medication-guide claims
are preempted. Eleven district courts have held that
such claims are preempted.5 And eleven district
courts have held that such claims are not preempted.6
And the Fourth Circuit recently requested oral
argument in Bean. (Pet.App.98a-100a)
Apart from amiodarone and other drugs, the
question
presented
has
particularly
large
implications for medical device cases. For medical
McLeod v. Sandoz, Inc., 2017 U.S. Dist. LEXIS 48621, at *26
(D.S.C. Mar. 31, 2017); Moore v. Zydus Pharm. (USA), Inc., 277
F. Supp. 3d 873, 881 (E.D. Ky. 2017); Bean v. Upsher-Smith
Pharm., Inc., 2017 U.S. Dist. LEXIS 160483, at *20 (D.S.C. Sep.
29, 2017) (on appeal); Perdue v. Wyeth Pharm., Inc., 209 F. Supp.
3d 847, 853 (E.D.N.C. 2016); Elliott v. Sandoz, Inc., 2016 U.S.
Dist. LEXIS 109609, at *15 (N.D. Ala. Aug. 18, 2016); Allain v.
Wyeth Pharm., Inc., 2015 U.S. Dist. LEXIS 83676, at *22 (N.D.
Ala. June 29, 2015); Connolly v. Sandoz Pharm. Corp., 2014 U.S.
Dist. LEXIS 190163, at *15 (N.D. Ga. Dec. 23, 2014); Tutwiler v.
Sandoz Inc., 2017 U.S. Dist. LEXIS 122325, at *4 (N.D. Ala. Aug.
3, 2017); Caughron v. Upsher-Smith Labs., Inc., 2017 U.S. Dist.
LEXIS 103416, at *2 (E.D. Ark. July 5, 2017).
5

Priest v. Sandoz, Inc., 2016 U.S. Dist. LEXIS 186635, at *16
(W.D. Tex. Dec. 29, 2016); Mitchell v. Wyeth Pharm., Inc., 2017
U.S. Dist. LEXIS 73276, at *9 (W.D. Tex. Jan. 19, 2017); Monk
v. Wyeth Pharm., Inc., 2017 U.S. Dist. LEXIS 72477, at *15
(W.D. Tex. May 11, 2017); Hernandez v. Wyeth-Ayerst Labs., Inc.,
2017 U.S. Dist. LEXIS 58743, at *14-15 (N.D. Ill. Apr. 18, 2017);
Martinez v. Teva Pharm. USA, Inc., 2018 U.S. Dist. LEXIS
127697, at *6 (S.D. Tex. July 31, 2018); Marvin v. Zydus Pharm.
(USA) Inc., 203 F. Supp. 3d 985, 989 (W.D. Wis. 2016); Rusk v.
Wyeth-Ayerherst Labs., Inc., 2015 U.S. Dist. LEXIS 75557, at *19
(W.D. Tex. June 11, 2015); Wells v. Wyeth Pharm., Inc., 2017 WL
8182749, at *5 (W.D. Tex. Apr. 12, 2017), report and
recommendation adopted, 2017 WL 8182839 (W.D. Tex. May 23,
2017); Polt v. Sandoz, Inc., No. 2:16-cv-02362-ER, Doc. 58, at *2
n. 1 (E.D. Penn. July 10, 2017).
6

21
devices, the FDCA expressly preempts any state
statute or regulation “which is different from, or in
addition to, any requirement applicable under” the
FDCA. 21 U.S.C. § 360k(a)(1). Interpreting
§ 360k(a)(1), this Court has explained that it “does not
prevent a State from providing a damages remedy for
claims premised on a violation of FDA regulations;
the state duties in such a case ‘parallel,’ rather than
add to, federal requirements.” Riegel v. Medtronic,
Inc., 552 U.S. 312, 330 (2008).
Allowing the decision below to stand would
effectively close (at least in the Sixth Circuit) the
narrow gap that the Riegel Court left open. If medical
device claims that parallel federal regulations are not
permitted by Buckman and medical device claims
that don’t parallel federal regulations are not
permitted by Riegel, then there can be no medical
device claims. This Court did not intend this result
when it decided Riegel.
III.

The Sixth Circuit’s Decision Is Wrong.

The Sixth Circuit’s opinion is incorrect,
because it conflicts with this Court’s interpretation of
its decision in Buckman.
The Supreme Court has addressed Buckman
infrequently but has provided some guidance. See
Wyeth v. Levine, 555 U.S. 555 (2009). The Sixth
Circuit disregarded this Court’s guidance.
In Levine, this Court decided whether a failureto-warn claim against a manufacturer was preempted
under either impossibility or obstacle preemption.

22
Levine, 555 U.S. at 563. After rejecting impossibility
preemption, the Court also rejected obstacle
preemption. “If Congress thought state-law suits
posed an obstacle to its objectives, it surely would
have enacted an express pre-emption provision at
some point during the FDCA’s 70-year history.” Id. at
574.
The Levine majority also puzzled at the Levine
dissent’s reliance on Buckman. In Buckman, the
“Court distinguished state regulation of health and
safety as matters to which the presumption [against
preemption] does apply.” Id. at 565 n. 3. In Levine, the
plaintiff alleged failure to warn, which falls within the
states’ historical role in regulating health and safety.
Indeed, “[f]ailure-to-warn actions, in particular, lend
force to the FDCA’s premise that manufacturers, not
the FDA, bear primary responsibility for their drug
labeling at all times.” Id. at 579. Nevertheless, the
Court stopped short of holding that no state-law
failure-to-warn claims are preempted.
Two years later, in Mensing, this Court
considered a failure-to-warn claim against a generic
drug manufacturer. 564 U.S. at 609. The plaintiff
contended that the generic manufacturer should have
changed the FDA-mandated warning. Id. at 610. The
Court held that the claim was preempted under
impossibility preemption. Id. at 623-24. Because the
FDA required the generic manufacturer to give the
same warning as the name-brand manufacturer, it
was “impossible” for the generic manufacturer to
change the label. Id. The Court, however, implied that
it would permit claims against generic manufacturers
for failure to provide warnings mandated by the FDA.

23
The Court also cited Buckman in Chamber of
Commerce of the United States v. Whiting, 563 U.S.
582, 584 (2011). In Whiting, the Court explained that
Buckman involved a “uniquely federal area[] of
regulation.” Id. at 604. And Buckman concerned
“state actions that directly interfered with the
operation of [a] federal program.” Id. Effectively,
then, Whiting cabined Buckman to cases in which the
application of state law would interfere in the
operation of a federal program in a uniquely federal
area of regulation.
The Sixth Circuit disregarded Whiting and did
exactly what this Court cautioned against in Levine.
Citing Buckman, the court held that “McDaniel’s
failure-to-warn claims based on Upsher-Smith’s
alleged failure to provide a Medication guide are
impliedly preempted.” (Pet.App.5a-6a) But, as in
Levine, failure to warn is exactly the kind of health
and safety matter that states have historically
regulated. Failure to warn does not involve a
“uniquely federal area[] of regulation” or concern
“state actions that directly interfere[s] with the
operation of [a] federal program.” Whiting, 563 U.S.
at 604. While McDaniel did plead that Defendant
failed to provide an FDA-mandated warning, she was
required to plead this under Mensing. Defendants’
failure to follow FDA regulations resulted in a failure
to warn under Tennessee law. The Sixth Circuit did
not address the presumption against preemption at
all.
Aside from disregarding this Court’s
implications, the Sixth Circuit’s opinion is poorly
reasoned. McDaniel alleged that Defendant failed to

24
adequately warn under Tennessee law by not
providing required medication guides for distribution
to her late husband. The majority affirmed the
district court opinion based on the opposite premise:
“The adequacy of the warnings is not the issue—
McDaniel has told us so.” (Pet.App.11a)
The majority’s premise appears to be based on
a misreading of McDaniel’s complaint and briefing. As
McDaniel explained in her district court brief, “The
allegation is not one of adequacy or ‘content’ failure to
warn, (i.e., the verbiage or even the format fails), but
an actual and physical negligent failure of UpsherSmith to fulfill its federally mandated responsibility
to ensure Medication Guides are available for
distribution directly to patients with each
prescription.” (Id. at 8a) In other words, Defendant
failed to give the adequate warning (i.e., the
medication guide) at all. While the medication guide
would have been an adequate warning, the warnings
that Defendant actually provided were not adequate
in the absence of the medication guide.
As Chief Judge Cole recognized in his dissent,
the line from Ms. McDaniel’s district court briefing,
on which the panel majority relied, means only that
the medication guide would have been an adequate
warning had Defendant provided it. It was not a
concession, but rather “meant to explain why the
claim is not barred by impossibility preemption.”
(Pet.App.19a) Because Defendant did not effectively
provide a medication guide, it failed to provide an
adequate warning. Chief Judge Cole explained: “The
crux
of
McDaniel’s
Tennessee
claim
is
straightforward: Upsher-Smith failed to provide a

25
Medication Guide to her late husband, and that
failure rendered inadequate the warnings of
amiodarone’s potential risks and side effects it did
provide and caused her late husband’s death.” (Id. at
16a)
The majority’s interpretation of the line from
Ms. McDaniel’s district court briefing would render
McDaniel’s briefing self-contradictory. She alleged
consistently throughout her briefing that Defendant’s
failure to adequately warn caused her injuries. (See
id. at 17a)
And as Chief Judge Cole points out, the
majority’s interpretation of the line also makes her
briefing contradict her complaint. (Id.) Because a
court is evaluating the sufficiency of the complaint,
the complaint should take precedence over one,
arguably ambiguous line from Ms. McDaniel’s district
court briefing. (Id. at 18a) (citing FED. R. CIV. P.
12(b)(6)).
Finally, the panel majority was incorrect to
state that “the federal duty of ensuring the
Medication Guides are available for distribution to a
patient is the only element of McDaniel’s failure-towarn claims.” (Pet.App.12a) (emphasis in original). In
addition to proving that Defendant failed to provide
an adequate warning (in this case, a medication
guide), Ms. McDaniel would also have to prove that
her husband died from amiodarone. Relatedly, she
would have to prove that Defendants’ failure to
provide the warning proximately caused her late
husband’s death.

26
Accordingly, the Sixth Circuit erred because it
disregarded this Court’s guidance in its analysis of
McDaniel’s complaint. Specifically, unlike other
courts of appeals, it failed to address the presumption
against preemption and it presumed that McDaniel’s
claim was preempted because it mirrored a federal
regulation.
***
This case directly presents a recurring issue on
which the circuit courts are split, and which is of
significant importance to the orderly and predictable
operation of the federal civil courts system. The Court
should grant the petition.
CONCLUSION
The petition for a writ of certiorari should be
granted.

27
Dated: October 31, 2018 Respectfully submitted,
By:

/s/ E. Kirk Wood, Jr.
E. Kirk Wood, Jr.
Counsel for Appellant
E. KIRK WOOD
WOOD LAW FIRM, LLC
P. O. Box 382434
Birmingham, Alabama
35238-2434
Telephone: (205) 612-0243
Facsimile: (866) 747-3905
Email:
kirk@woodlawfirmllc.com
SAM COLE LEGAL
SERVICES, PLLC
6721 Kemper Drive
Plano, TX 75023
Telephone: 361-649-2734
Email:
samcolelegalservices@
gmail.com

APPENDIX

ia
APPENDIX TABLE OF CONTENTS
Page
Published Opinion and Judgment of
The United States Court of Appeals
For the Sixth Circuit
entered June 29, 2018 .................................... 1a
Order and Judgment of
The United States District Court
For the Western District of Tennessee
Re: Granting Defendant’s Motion to Dismiss
entered May 25, 2017................................... 22a
Order of
The United States Court of Appeals
For the Sixth Circuit
Re: Denying Petition for Rehearing En Banc
entered August 2, 2018 ................................ 33a
Amended Complaint
entered February 6, 2017 ............................ 35a
Exhibit to Plaintiff’s Motion for
Certificate of Appealability
entered February 6, 2017:
1.

Order of
The United States District Court
For the Western District of Tennessee
Re: Granting in Part and
Denying in Part Defendant’s
Motion to Dismiss
entered January 26, 2017....... 83a

U.S. CONST. art. IV.................................................. 96a

iia
21 U.S.C. § 337(a) ................................................... 96a
21 C.F.R. §§ 208.24(a), (b) ...................................... 97a
Tentative Calendar Order of
The United States Court of Appeals
For the Fourth Circuit
Re: Bean v. Upsher-Smith Pharmaceuticals
entered August 3, 2018 ................................ 98a
Tentatively Calendared Case Continued Order of
The United States Court of Appeals
For the Fourth Circuit
Re: Bean v. Upsher-Smith Pharmaceuticals
entered October 16, 2018 ........................... 100a

1a
[ENTERED: June 29, 2018]
RECOMMENDED FOR FULL-TEXT PUBLICATION
Pursuant to Sixth Circuit I.O.P. 32.1(b)
File Name: 18a0128p.06
UNITED STATES COURT OF APPEALS
FOR THE SIXTH CIRCUIT
RITA MCDANIEL, Individually and as ┐
Personal Representative of the
│
Estate of Johnny F. McDaniel,
│
Deceased,
│
Plaintiff-Appellant,
> No. 17-5741
│
v.
│
│
UPSHER-SMITH LABORATORIES, INC., │
Defendant-Appellee.
│
┘
Appeal from the United States District Court for the
Western District of Tennessee at Memphis.
No. 2:16-cv-02604—Jon Phipps McCalla,
District Judge.
Argued: April 10, 2018
Decided and Filed: June 29, 2018
Before: COLE, Chief Judge; SILER and COOK,
Circuit Judges.

2a
COUNSEL
ARGUED:
Samuel C. Cole, COLE, EASLEY,
SCIBA & WILLIAMS, Victoria, Texas, for Appellant.
Mark C. Hegarty, SHOOK, HARDY & BACON LLP,
Kansas City, Missouri, for Appellee. ON BRIEF: E.
Kirk Wood, Jr., WOOD LAW FIRM, LLC,
Birmingham, Alabama, for Appellant.
Eric E.
Hudson, Kyle R. Cummins, BUTLER SNOW LLP,
Memphis, Tennessee, for Appellee.
COOK, J., delivered the opinion of the court in
which SILER, J., joined, and COLE, C.J., joined in
part. COLE, C.J. (pp. 10–13), delivered a separate
opinion concurring in part and dissenting from Part
II.B. of the majority opinion.
OPINION
COOK, Circuit Judge.
Rita McDaniel’s
husband died after taking a course of a prescription
drug manufactured by Upsher-Smith Laboratories,
Inc. She sued, alleging that Upsher-Smith’s failure
to ensure that a Medication Guide accompanied the
prescription led to her husband ingesting—and
dying because of—a drug that wasn’t meant for him.
We are tasked with deciding whether the Federal
Food, Drug, and Cosmetic Act (“FDCA”) impliedly
preempts McDaniel’s Tennessee failure-to-warn
claims premised solely on Upsher-Smith’s failure to
provide the Medication Guide as required by FDA
regulations. It does. We AFFIRM.

3a
I.
A.
We take as true the well-pleaded allegations
in McDaniel’s complaint and summarize them as
follows. See Stein v. HHGREGG, Inc., 873 F.3d 523,
528 (6th Cir. 2017).
Upsher-Smith manufactures a generic form of
the prescription drug amiodarone hydrochloride
(“amiodarone”). The FDA approved amiodarone in
its brand-name formulation as a drug of last resort
for patients suffering from ventricular fibrillation
and ventricular tachycardia, both life-threatening
heartbeat irregularities.
As a generic manufacturer of amiodarone,
Upsher-Smith has an ongoing duty to ensure that it
includes the same labeling approved for its brandname counterpart. See 21 U.S.C. § 355(j)(2)(A)(v).
One of those labeling requirements is to make
“Medication Guides” available for distribution to
each patient with each prescription, by providing
them—or the means to produce them—to
distributors, packers, or authorized dispensers of the
drug. 21 C.F.R. § 208.24(b). Medication Guides
explain the approved uses of a drug and its side
effects to a patient “in nontechnical, understandable
language” that is clearly presented in at least 10point font. See id. § 208.20.
The Medication Guide for amiodarone warns
patients that the drug “should only be used in adults
with life-threatening heartbeat problems called
ventricular arrhythmias.” Lung damage is listed as
a “serious side effect” of taking the drug, along with

4a
related symptoms such as shortness of breath and
wheezing. Because “the medicine stays in your body
for months after treatment is stopped,” these adverse
effects may continue even after ceasing treatment.
B.
Rita McDaniel, Johnny’s widow, sued UpsherSmith on behalf of her late husband’s estate. In
general, she alleges that her husband died in July
2015 because he had been taking amiodarone. More
specifically, Johnny’s doctor prescribed him a course
of amiodarone to treat his non-life threatening atrial
fibrillation. Johnny apparently did not receive the
corresponding Medication Guide when he filled his
prescriptions in May and June 2015 because UpsherSmith neglected to ensure its availability. Thus, he
was unaware that only adults with life-threatening
heartbeat problems who had unsuccessfully sought
alternative treatments should take the drug.
McDaniel sued on multiple theories, but only
her
Tennessee
strict-liability
failure-to-warn,
negligent failure-to-warn, and negligence-per-se
claims are before us. The failure-to-warn claims are
premised solely on Upsher-Smith’s failure to provide
a Medication Guide.
Upsher-Smith moved to
dismiss for failure to state a claim under Federal
Rule of Civil Procedure 12(b)(6). The district court
granted Upsher-Smith’s motion and dismissed the
failure-to-warn claims with prejudice, holding that
they were impliedly preempted under the FDCA.
The court explained that McDaniel failed to cite any
Tennessee duty paralleling the federal duty to
provide a Medication Guide. Said differently, the
claims would not exist in the absence of the FDCA.

5a
II.
A.
We review de novo the district court’s
dismissal on federal preemption grounds. Fulgenzi
v. PLIVA, Inc., 711 F.3d 578, 583 (6th Cir. 2013).
When state and federal laws clash, federal law
reigns supreme and state law is preempted. U.S.
Const., art. VI, cl. 2. “State-law claims can be
preempted expressly in a federal statute or
regulation, or impliedly, where congressional intent
to preempt state law is inferred.” Yates v. OrthoMcNeil-Janssen Pharm., Inc., 808 F.3d 281, 293 (6th
Cir. 2015). In the absence of an express preemption
statute, as here, federal law may impliedly preempt
state law to the extent the two laws conflict. Fid.
Fed. Sav. & Loan Ass’n v. de la Cuesta, 458 U.S. 141,
153 (1982). This type of implied preemption, known
as conflict preemption, comes in two forms—
impossibility and obstacle preemption. State Farm
Bank v. Reardon, 539 F.3d 336, 342 (6th Cir. 2008).
Impossibility preemption exists when compliance
with both federal and state law is impossible. Gade
v. Nat’l Solid Wastes Mgmt. Ass’n, 505 U.S. 88, 98
(1992); Florida Lime & Avocado Growers, Inc. v.
Paul, 373 U.S. 132, 142–43 (1963).
Obstacle
preemption exists when state law serves as an
obstacle to the purposes and objectives embodied in a
federal law.
Gade, 505 U.S. at 98; Hines v.
Davidowitz, 312 U.S. 52, 67 (1941).
B.
McDaniel’s failure-to-warn claims based on
Upsher-Smith’s alleged failure to provide a

6a
Medication Guide are impliedly preempted. Except
in circumstances not relevant here, “all such
proceedings for the enforcement, or to restrain
violations, of [the FDCA] shall be by and in the name
of the United States.” 21 U.S.C. § 337(a). “The
FDCA leaves no doubt that it is the Federal
Government rather than private litigants who are
authorized to file suit for noncompliance . . . .”
Buckman Co. v. Plaintiffs’ Legal Comm., 531 U.S.
341, 349 n.4 (2001).
In alleging a failure to warn, McDaniel does
not “rely[] on traditional state tort law which had
predated the federal enactments in question[]. On
the contrary, the existence of these federal
enactments is a critical element in [her] case.” Id. at
353.
McDaniel seeks to enforce the federal
regulation requiring drug manufacturers to ensure
the availability of Medication Guides for distribution
to patients. See 21 C.F.R. § 208.24. Her complaint
makes this eminently clear. For instance, she
asserts:
The failure to provide each patient
a “Medication Guide” by failing to
provide the Medication Guides to the
distributor for ultimate distribution to
the patient with the drug is a direct
violation of the FDA’s mandate to the
manufacturers of the drug intended to
warn patients directly outside the
communication with the prescribing
physician, of the very dangers of
amiodarone toxicity that injured
Johnny McDaniel.

7a
Other parts of the complaint similarly demonstrate
that the existence of the Medication Guide
regulation is a “critical element” in McDaniel’s suit.
Here are just a few:
• The
Defendant
manufacturer,
Upsher-Smith, was responsible by
federal regulation for ensuring that
the appropriate warning labels and
Medication Guides were provided to
McDaniel. Had the Medication Guide
been provided by Upsher-Smith to the
distributor or his pharmacists for
distribution to him as required by
FDA regulations, McDaniel . . . would
not have taken amiodarone[.]
• Because
his
distributors
and
pharmacists were not provided a
Medication Guide to give directly to
him outside of his doctor’s office and
interaction as required by FDA
regulations
by
the
Defendant
manufacturer, McDaniel did not know
“the medicine stays in your body for
months after treatment is stopped.”
• McDaniel
did
not
receive
a
Medication
Guide
because
the
Defendant Upsher-Smith did not
provide the Medication Guide to the
distributors for distribution to him by
his pharmacists as required by the
FDA and did not ensure that the
Medication Guide was distributed to
McDaniel.

8a
McDaniel’s opposition to Upsher-Smith’s
motion to dismiss further underscores that this
litigation
is
strictly
about
Upsher-Smith’s
compliance with federal regulations that are
enforceable only by the Federal Government. She
insisted that her “failure-to-warn claims [are] based
on Upsher-Smith’s failure to provide the FDA
required Medication Guide to Johnny” and that
“[t]he Medication Guide that Johnny did not receive
was required by federal law to be provided to” him.
What’s more, McDaniel explicitly disclaimed the
argument that her failure-to- warn claims stem from
inadequate content. She described her complaint as
alleging that Upsher-Smith “failed to actually and
physically provide for the appropriate distribution of
federally mandated warnings in the form of the
Medication Guide.” Then she doubled down on her
reliance on the FDA’s regulations: “The allegation is
not one of adequacy or ‘content’ failure to warn, (i.e.,
the verbiage or even the format fails), but an actual
and physical negligent failure of Upsher-Smith to
fulfill its federally mandated responsibility to ensure
Medication Guides are available for distribution
directly to patients with each prescription.”
McDaniel cannot salvage her appeal by
hanging her hat on a generic duty to warn under
Tennessee law. Cf. Loreto v. Procter & Gamble Co.,
515 F. App’x 576, 579 (6th Cir. 2013) (“The [FDCA’s]
public enforcement mechanism is thwarted if savvy
plaintiffs can label as arising under a state law for
which there exists a private enforcement mechanism
a claim that in substance seeks to enforce the
FDCA.”).
McDaniel’s failure-to-warn claims are
governed by the Tennessee Products Liability Act of
1978 (“TPLA”). Tenn. Code Ann. § 29-28-102(6)

9a
(defining all actions based upon theories of strict
liability or negligence as a “[p]roduct liability action”
subject to the TPLA). Under the TPLA (which
McDaniel neither references in her complaint nor
discusses in her briefing before us or the district
court), “[a] manufacturer or seller of a product in
Tennessee ‘shall not be liable for any injury to a
person or property caused by the product unless the
product is determined to be in a defective condition
or unreasonably dangerous at the time it left the
control of the manufacturer or seller.’” Strayhorn v.
Wyeth Pharm., Inc., 737 F.3d 378, 392 (6th Cir.
2013) (quoting Tenn. Code Ann. § 29-28-105(a)).
True, Cansler v. Grove Manufacturing Co. explained
that, under Tennessee law, “[a] product may also be
considered defective or unreasonably dangerous if
the manufacturer failed to provide adequate
warnings informing users of dangers involved in
using the product.” 826 F.2d 1507, 1510 (6th Cir.
1987). The Cansler plaintiff sought to show that a
crane “was defective or unreasonably dangerous
because the warnings concerning the dangers . . .
were inadequate to apprise” him of “the nature and
extent of the danger.” Id. at 1509. But this is of no
help to McDaniel, who has pleaded that the
“adequacy” of warnings to her husband is not the
issue; the issue is Upsher-Smith’s alleged failure to
ensure the Medication Guide’s availability for
distribution. The TPLA does not create a parallel
duty to provide a Medication Guide.
McDaniel finds little support in other failureto-warn-via-Medication-Guide caselaw. That’s because
the majority of the district courts to consider this
very issue have found identical claims preempted.
See Moore v. Zydus Pharm. (USA), Inc., 277 F. Supp.

10a
3d 873, 881 (E.D. Ky. 2017) (“Since Ms. Moore’s
claim concerning receipt of the medication guide
exists exclusively due to the federal regulatory scheme,
her claim must fail as the cause of action is merely
based upon alleged violation of the FDCA . . . .”); 1
Bean v. Upsher-Smith Pharm., Inc., No. 4:16-cv01696-RBH, 2017 WL 4348330, at *6–7 (D.S.C. Sept.
29, 2017) (“Because the requirement to provide a
Medication Guide to distributors is based solely in
the requirements of the FDCA and related
regulations, and there is no parallel duty to provide
a Medication Guide under South Carolina law,
Plaintiff’s claims based upon failure to provide a
Medication Guide are preempted under Buckman.”),
appeal docketed, No. 17-2263 (4th Cir. Oct. 27, 2017);
Elliott v. Sandoz, Inc., No. 2:16-cv-00861-RDP, 2016
WL 4398407, at *5–6 (N.D. Ala. Aug. 18, 2016)
(holding “Plaintiff’s claim that Defendant was
negligent for failing to provide Medication Guides to
Decedent is preempted by [FDCA §] 337(a)”); Allain
v. Wyeth Pharm., Inc., No. 2:14-cv-00280- KOB, 2015
WL 3948961, at *8–9 (N.D. Ala. June 29, 2015)
(finding preempted the plaintiff’s claim that
defendants failed to provide Medication Guides to
plaintiff’s pharmacy); see also Caughron v. UpsherSmith Labs., Inc., No. 3:17-cv-21-DPM, 2017 WL
3015606, at *1 (E.D. Ark. July 5, 2017) (“Any claim
based on failure to provide the medication guide to

1

The Moore plaintiff made the same unavailing
argument in opposition to that motion to dismiss as
McDaniel—that “the allegation is not one of an adequacy or
‘content’ failure to warn . . . but an actual and physical
negligent failure of Zydus to fulfill its federally-mandated
responsibility to ensure that Medication Guides are available
for distribution.” 277 F. Supp. 3d at 880.

11a
Mr. Caughron is preempted. 21 C.F.R. § 208.24(b) &
(c).”).2
The best support McDaniel marshals is
Fulgenzi v. PLIVA, Inc. Unfortunately for McDaniel,
that case does not compel us to reverse. In Fulgenzi,
the generic-drug manufacturer PLIVA never
updated its metoclopramide labeling to include the
warning newly added to Schwarz Pharma’s branded
equivalent Reglan. 711 F.3d at 580. Fulgenzi’s
plaintiff alleged that PLIVA’s failure to update its
labeling violated the federal duty of sameness
required of branded- and generic-drug labeling and
“rendered its warnings inadequate under Ohio law.”
Id. at 581–82. The court held that her Ohio tort
claim was not preempted because “[h]er suit instead
relie[d] upon the adequacy of the warnings and the
causation of her injuries” instead of the “[f]ailure to
update from one adequate warning to another.” Id.
at 587. Plus, “[o]n the merits, whether PLIVA ha[d]
violated its federal duties [was] irrelevant to the
adequacy of its warnings.” Id.
But here, as explained above, adequacy of the
warnings is not the issue. Rather, it is UpsherSmith’s alleged failure to ensure the amiodarone
Medication Guide’s availability for distribution—the
failure to comply with a federal regulation that only
the Federal Government may enforce—that is the
Although the overwhelming weight of authority on
this question tips the scales toward preemption, we recognize
that it is not unanimous. See, e.g., Marvin v. Zydus Pharm.
(USA) Inc., 203 F. Supp. 3d 985, 989 (W.D. Wisc. 2016)
(“Plaintiffs’ claim is a tort law claim based on defendant’s
alleged failure to warn, rather than fraud on a federal agency.
Accordingly, the claim is not subject to implied preemption
under Buckman.”).
2

12a
ballast steadying McDaniel’s claim. In other words,
whereas “[t]he federal duty of sameness [was] not ‘a
critical element’ in Fulgenzi’s case,” id. (quoting
Buckman, 531 U.S. at 353), the federal duty of
ensuring that Medication Guides are available for
distribution to a patient is the only element of
McDaniel’s failure-to-warn claims.
McDaniel insists that she, like the Fulgenzi
plaintiff, alleged a federal-law violation strictly to
avoid impossibility preemption under PLIVA, Inc. v.
Mensing, 564 U.S. 604 (2011). See Fulgenzi, 711
F.3d at 587. We are not persuaded. In Mensing,
patients who had taken generic metoclopramide and
developed tardive dyskinesia sued the generic
manufacturers for failing to update the warning
labels to adequately advise of the medication’s risks.
564 U.S. at 610. They claimed that state tort law
obligated these manufacturers to use a stronger
label. Id. at 617. But FDA regulations require
sameness between the warning labels of a brandname drug and its generic counterpart. Id. at 613;
21 C.F.R. §§ 314.94(a)(8), 314.127(a)(7). The generic
manufacturers were in a bind. If they strengthened
the label to satisfy state law, they’d run afoul of their
federal duty of sameness; if they retained the label to
satisfy federal law, they’d fall short of their state-law
duty to provide adequate labeling. 564 U.S. at 618.
Finding it impossible for the generic manufacturers
to comply with state and federal law, the Supreme
Court held that state law must give way and the tort
claims were preempted. Id. at 618, 624.
This case is not like Mensing. There, the
plaintiffs alleged that the warning labels were
inadequate because they did not disclose the

13a
mounting evidence of elevated tardive dyskinesia
risks associated with long-term metoclopramide use.
Here, McDaniel claims that her husband did not
receive the Medication Guide with his amiodarone
prescription. The adequacy of warnings is not the
issue—McDaniel has told us so.
And McDaniel’s contention that she alleged a
violation of FDA regulations only to guard against
dismissal on impossibility preemption grounds is a
red herring. Whereas the Fulgenzi plaintiff’s claim
of inadequate labeling did not depend on PLIVA
violating its federal duties, 711 F.3d at 587,
McDaniel is suing Upsher-Smith because its alleged
conduct violates the federal Medication Guide
regulations. Cf. id. at 588 (acknowledging that
Buckman applies where an “element of the claim is
premised on a federal-law violation”). How do we
know that these FDA regulations are essential to her
claims?
Again, we need look no further than
McDaniel’s own words: she alleges “an actual and
physical negligent failure of Upsher-Smith to fulfill
its federally mandated responsibility to ensure
Medication Guides are available for distribution
directly to patients with each prescription.” We
won’t ignore the language of McDaniel’s allegations
simply so that we may shoehorn her claims into
Fulgenzi’s realm.
So, in our words, the existence of the FDA
regulations requiring a manufacturer to ensure the
availability of Medication Guides for distribution to
patients is critical to McDaniel’s case. See Buckman,
531 U.S. at 353. Because McDaniel’s failure-to-warn
claims “would exert an extraneous pull on the
scheme established by Congress,” id., they are

14a
therefore impliedly preempted by the FDCA, see 21
U.S.C. § 337(a).3
C.
We do not, however, address whether the
FDCA impliedly preempts a claim under the doctrine
of negligence per se. Under this doctrine, McDaniel
seeks to rely on Upsher-Smith’s violation of the
Medication Guide regulations and a state
misbranding statute to establish a duty of care and a
breach of that duty. We conclude that McDaniel
waived the right to do so under Tennessee law.
Although the negligence per se doctrine does
not create a new cause of action, a plaintiff must
nonetheless plead a separate claim for negligence
per se under Tennessee law. See Messer Griesheim
Indus., Inc. v. Eastman Chem. Co., 194 S.W.3d 466,
482–83 (Tenn. Ct. App. 2005). In her complaint,
McDaniel pleads a separate claim for negligence per
se, but only in support of an off-label promotion claim.
The district court viewed it as such in dismissing the
claim, and McDaniel does not challenge the
dismissal of her off-label promotion claim on appeal.
Nor did McDaniel argue sufficiently in support of the
doctrine in her briefing below. As we have often
repeated, “an argument not raised before the district
court is waived on appeal to this Court.” Scottsdale
Ins. Co. v. Flowers, 513 F.3d 546, 552 (6th Cir. 2008).
III.
We AFFIRM.
Because our ruling rests on preemption, we decline to
address the effect of Tennessee’s learned intermediary doctrine
on the issues presented.
3

15a

CONCURRING IN PART AND
DISSENTING IN PART
COLE, Chief Judge, concurring in part and
dissenting in part. We are obligated to consider the
words in a complaint. At this stage, they are all that
we may consider. In re Omnicare, Inc. Sec. Litig.,
769 F.3d 455, 466 (6th Cir. 2014). McDaniel states
in her complaint that Upsher-Smith failed to provide
“sufficient instructions or warnings” of the “potential
risks and side effects of amiodarone” by “failing to
ensure [her late husband] was timely provided the
Medication Guide.” Compl., R.1, ¶¶ 91, 94. In my
view, these words mean what they say—that the
failure to provide a medication guide rendered the
warnings that were provided inadequate. The
majority contends otherwise, concluding that the
“adequacy of the warnings is not the issue.” Maj.
Op. 7. By doing so, it distinguishes Fulgenzi v.
PLIVA, Inc., 711 F.3d 578 (6th Cir. 2013).
I respectfully dissent from Part II.B of the
majority’s opinion and conclude that we are bound
by Fulgenzi to hold that the Food, Drug and
Cosmetic Act (“FDCA”) does not impliedly preempt
McDaniel’s Tennessee failure-to-warn claims under
theories of strict liability and negligence. However, I
agree with the majority that McDaniel has waived
the right to rely on the doctrine of negligence per se
under Tennessee law.

16a
I.
The crux of McDaniel’s Tennessee claims is
straightforward: Upsher-Smith failed to provide a
medication guide to her late husband, and that
failure rendered inadequate the warnings of
amiodarone’s potential risks and side effects it did
provide and caused her late husband’s death.
Implied preemption leaves open a narrow gap
for state failure-to-warn claims against generic drug
manufacturers that resides between its two forms—
impossibility and obstacle preemption. The claim
must be premised on conduct that violates the FDCA
to avoid impossibility preemption. PLIVA, Inc. v.
Mensing, 564 U.S. 604, 618–19 (2011). This is so
because the FDCA requires a generic drug to have
the same warnings as its brand-name counterpart
(under the federal duty of sameness), so that
simultaneous compliance with any state duty to
supply different warnings would be impossible. Id.
At the same time, to avoid obstacle preemption, the
violation of the FDCA cannot be “a critical element”
of the claim. Buckman Co. v. Plaintiffs’ Legal
Comm., 531 U.S. 341, 353 (2001).
That narrow gap was successfully threaded in
Fulgenzi. There, as here, the plaintiff brought a
state claim against a generic drug manufacturer for
its alleged failure to adequately warn of a drug’s
risks. Id. at 579–80. The claim differed only insofar
as the plaintiff alleged that the failure to update the
contents of the drug’s labeling—and not the failure
to supply a separate medication guide—rendered the
warnings inadequate. Id. As with all failure-towarn claims against generic drug manufacturers,

17a
the plaintiff could argue that the warnings were
inadequate only to the extent that they failed to
conform to the warnings provided by the brandname manufacturer in violation of the federal duty
of sameness. Id. at 584–85. We held that the
plaintiff’s claim was not preempted because the
generic drug manufacturer’s violation of the federal
duty of sameness, although alleged in the complaint,
was not a necessary (and thus not a critical) element
of her claim under Ohio law. Id. at 581–82, 587 &
n.5.
McDaniel’s Tennessee failure-to-warn claims
are no different. In her complaint, she alleges that
Upsher-Smith violated the federal duty of sameness
by failing to provide warnings in the form of a
medication guide. But she cannot be faulted for
doing so. The plaintiff in Fulgenzi made the same
allegation—the only difference being the means of
violating the duty. Id. at 581–82. And that same
allegation in McDaniel’s complaint is “essential to
her case—but only to avoid [impossibility]
preemption under Mensing.” Id. at 587. That is
because McDaniel must discuss federal law to show
why her claims are not barred by impossibility
preemption. See Mensing 564 U.S. at 618–19. It
does not mean that she “seeks to enforce . . . federal
regulation[s].” Maj. Op. 4.
McDaniel’s claims are premised on a violation
of an independent Tennessee duty to warn, not
federal law. “The alleged breach arises from the
same act”—namely, the failure to provide a
medication guide.
Fulgenzi, 711 F.3d at 587.
Indeed, it must arise from the same act to avoid
impossibility preemption. See Mensing, 564 U.S. at

18a
618–19.
“[B]ut the legal basis is different.”
Fulgenzi, 711 F.3d at 587. McDaniel’s claims depend
on whether the warnings provided were inadequate
and proximately caused her late husband’s death.
See id. at 587; Barnes v. Kerr Corp., 418 F.3d 583,
590 (6th Cir. 2005) (listing elements of Tennessee
failure- to-warn claims). Because the fact of a
federal-law violation is not a necessary element of
those claims, they are not subject to obstacle
preemption under Buckman. Fulgenzi, 711 F.3d at
587 & n.5.
When faced with an apparent conflict between
the words in a complaint and a brief responding to a
motion to dismiss, we are obligated to choose the
former.
It is, after all, the sufficiency of the
allegations in the complaint that we are evaluating.
See Fed. R. Civ. P. 12(b)(6). The majority focuses on
a singular remark in McDaniel’s briefing that “[t]he
allegation is not one of adequacy or ‘content’ failure
to warn, (i.e., the verbiage or even the format fails),
but an actual and physical negligent failure of
Upsher-Smith to fulfill its federally mandated
responsibility to ensure Medications Guides [sic] are
available for distribution directly to patients with
each prescription.” R. 23, PageID 111. The majority
interprets that statement to mean that, unlike in
Fulgenzi, McDaniel “pleaded that the ‘adequacy’ of
warnings . . . is not the issue.” Maj. Op. 6.
The complaint tells us that McDaniel pleaded
precisely the opposite: “The warnings and directions
provided with amiodarone by [Upsher-Smith] failed
adequately to warn of the potential risks and side
effects of amiodarone.” Compl., R. 1, ¶¶ 91, 98. And
context tells us that the purported concession in the

19a
brief was meant to explain why the claim is not
barred by impossibility preemption—clarifying in
the same section that what she meant is that she
“does not allege that the contents of the labeling
should have been changed” in violation of the federal
duty of sameness, only that a separate “Medication
Guide and its warnings were not provided to him in
accordance” with that duty. R. 23, PageID 113.
Indeed, it necessarily follows that McDaniel’s claims
challenge the adequacy of the warnings that were
provided, alleging as they do that a death would not
have occurred but for the failure to provide
additional warnings in the form of a medication
guide.
II.
Tennessee’s learned intermediary doctrine
does not bar McDaniel’s claims. Under this doctrine,
Upsher-Smith argues that its duty to warn under
Tennessee law extended only to her husband’s
prescribing physician. And this would mean that
McDaniel’s claims are barred, either because (1)
there is no Tennessee duty paralleling the federal
duty to provide a medication guide, or (2) she fails to
allege that the prescribing physician was
inadequately warned.
Upsher-Smith cannot dispense with its duty to
warn McDaniel’s late husband of amiodarone’s risks.
Under Tennessee law, the learned intermediary
doctrine “constitutes a defense,” rather than a
common-law rule delineating to whom a manufacturer
owes the duty to warn. See Nye v. Bayer Cropscience,
Inc., 347 S.W.3d 686, 701 (Tenn. 2011). When the
defense is invoked, “a pharmaceutical manufacturer

20a
can discharge its duty to warn by providing
the physician with adequate warnings of the
drug’s risks.” Id. This defense, however, does not
eliminate Upsher-Smith’s “continuing duty to warn
the users” of its prescription drugs. See Payne v.
Novartis Pharm. Corp., 767 F.3d 526, 530 (6th Cir.
2014) (interpreting Tennessee law). Adequately
warning a physician is simply one means of
discharging that duty.
Dismissal under this defense would be
premature at this juncture.
A plaintiff is not
required to plead around all potential defenses.
Xechem, Inc. v. Bristol-Myers Squibb Co., 372 F.3d
899, 901 (7th Cir. 2004). Only when a plaintiff
“admits all the ingredients of an impenetrable
defense” may a complaint that otherwise states a
claim be dismissed. Id. As Upsher-Smith points out,
McDaniel does not allege that her husband’s
physician was unaware of the risk of lung damage
associated with amiodarone. But she also does not
allege that his physician was aware of that risk.
Discovery is the proper vehicle to explore those
factual issues.
At this stage, it is enough that McDaniel has
pleaded a plausible claim to relief that is neither
precluded by the learned intermediary doctrine nor
preempted by the FDCA.

21a
UNITED STATES COURT OF APPEALS
FOR THE SIXTH CIRCUIT
FILED
Jun 29, 2018
DEBORAH S. HUNT, Clerk
No. 17-5741
RITA MCDANIEL, Individually and as Personal
Representative of the Estate of Johnny F. McDaniel,
Deceased,
Plaintiff - Appellant,
v.
UPSHER-SMITH LABORATORIES, INC.,
Defendant - Appellee.
Before: COLE, Chief Judge; SILER and COOK,
Circuit Judges.
JUDGMENT
On Appeal from the United States District Court for
the Western District of Tennessee at Memphis.
THIS CAUSE was heard on the record from
the district court and was argued by counsel.
IN CONSIDERATION THEREOF, it is
ORDERED that the judgment of the district court is
AFFIRMED.
ENTERED BY ORDER OF THE COURT
/s/
Deborah S. Hunt, Clerk

22a
[ENTERED: May 25, 2017]
IN THE UNITED STATES DISTRICT COURT
FOR THE WESTERN DISTRICT OF
TENNESSEE WESTERN DIVISION
RITA McDANIEL,
Individually and as Personal
Representative of the Estate
of JOHNNY F. McDANIEL,
Deceased,

)
)
)
)
)
)
Plaintiff,
)
No.
) 2:16-cv-02604-JPM-cgc
v.
)
)
)
UPSHER-SMITH
)
PHARMACEUTICALS, INC.,)
)
Defendant.
)
)
ORDER GRANTING
DEFENDANT’S MOTION TO DISMISS
Before the Court is Defendant Upsher-Smith
Pharmaceuticals, Inc.’s Motion to Dismiss the
Amended Complaint, filed February 17, 2017. (ECF
No. 29.) For the reasons stated below, the Motion to
Dismiss is GRANTED.

23a
I.

BACKGROUND
A.

Factual Background

Rita McDaniel brings an action on behalf of
the estate of Johnny F. McDaniel for wrongful death.
Plaintiff asserts that her husband was prescribed
200 mg amiodarone tablets in May 2015 for
treatment of his non-life-threatening atrial
fibrillation. (ECF No. 26 at PageID 221.) The
amiodarone tablets were manufactured and sold by
Upsher-Smith Pharmaceuticals, Inc as a generic
version of Wyeth’s Cordarone under the name
Paecerone. (Id. at PageID 222; ECF No. 29-1.)
Wyeth has received approval from the Food and
Drug Administration (FDA) to market and sell
amiodarone as a drug of last resort for patients
suffering
from
life-threatening
ventricular
fibrillation and ventricular tachycardia. (ECF No.
26 at PageID 214; ECF No. 29-1 at PageID 290.)
Plaintiff asserts that Defendant promoted the “offlabel” use of amiodarine as an initial treatment for
patients with atrial fibrillation, though Defendant
was aware that such a use had not received FDA
approval and may result in serious pulmonary
illness, toxicity, and death. (ECF No. 26 at PageIDs
214-215.) Plaintiff asserts that her husband was
given the amiodarone for off-label use, though he
was not in a situation of “last resort” as to the
management of his atrial fibrillation and his
condition was not life threatening. (Id. at PageIDs
215, 221.) Mr. McDaniel received his medication at
the Naval Branch Health Clinic. (Id. at PageID
221.) Plaintiff further asserts that Mr. McDaniel did
not receive the FDA Medication Guide and current
warning labels for the prescriptions. (Id.) Plaintiff

24a
alleges that Mr. McDaniel developed several
pulmonary complications as a result of the
inappropriate off-label use. (Id. at PageID 225.) Mr.
McDaniel was admitted to Methodist LeBonheur
Hospital on June 22, 2015 and died on July 22, 2015
at the age of 78. (Id. at PageIDs 215, 225.) Plaintiff
asserts six claims: (1) strict liability/failure to warn,
(2) negligence – failure to warn, (3) negligence –
marketing and sales, (4) negligence per se, (5) fraud
and deceit, and (6) wrongful death. (Id. at PageIDs
236-48.)
B.

Procedural Background

Plaintiff filed a Complaint on July 21, 2016.
(ECF No. 1.) Defendant filed a Motion to Dismiss on
August 22, 2016. (ECF No. 17.) On January 26,
2017, the Court entered an order granting in part
and denying in part Defendant’s Motion to Dismiss,
granting Defendant’s motion as to Counts I-IV of the
Complaint, denying Defendant’s motion as to Count
VI of the Complaint (wrongful death), and granting
Plaintiff leave to amend Count V of the Complaint
(fraud and deceit). (ECF No. 25.) Plaintiff filed an
Amended Complaint on February 6, 2017. (ECF No.
26.) In the Amended Complaint, Plaintiff includes
the dismissed Counts I-IV “to preserve the issue[s]
for appeal,” amends Count V (fraud and deceit), and
preserves Count VI (wrongful death). (Id.) Plaintiff
filed a Motion for Certificate of Appealability on
February 6, 2017, which the Court denied on April 5,
2017. (ECF Nos. 28, 31.) Defendant filed a Motion to
Dismiss the Amended Complaint on February 17,
2017. (ECF No. 29.) Due to Plaintiff’s failure to
respond to the motion to dismiss, the Court entered
an Order to Show Cause on April 5, 2017. (ECF No.

25a
31.) Plaintiff responded to the Order to Show Cause
on April 19, 2017, stating that “Plaintiff opposes that
Motion to Dismiss but stands on the content and
allegations of the Amended Complaint filed in
accordance with the Court’s Order.” (ECF No. 33.)
II.

Legal Standards
A.

Motion to Dismiss

A court may dismiss a claim for “failure to
state a claim upon which relief can be granted.” Fed.
R. Civ. P. 12(b)(6). “To survive a motion to dismiss,
a complaint must contain sufficient factual matter,
accepted as true, to ‘state a claim to relief that is
plausible on its face.’” Ashcroft v. Iqbal, 556 U.S.
662, 678 (2009) (quoting Bell Atl. Corp. v. Twombly,
550 U.S. 544, 570 (2007)).
A complaint must contain a short and
plain statement of the claim showing
that the pleader is entitled to relief. . . .
A claim is facially plausible when the
pleaded factual content allows the court
to draw the reasonable inference that
the defendant is liable for the
misconduct alleged. . . . [T]he court
need not accept as true allegations that
are conclusory or require unwarranted
inferences based on the alleged facts.
Newberry v. Silverman, 789 F.3d 636, 640 (6th Cir.
2015) (citations and internal quotation marks
omitted).
“Plausibility is not the same as
probability, but it requires ‘more than a sheer
possibility that a defendant has acted unlawfully.’”

26a
Mik v. Fed. Home Loan Mortg. Corp., 743 F.3d 149,
157 (6th Cir. 2014) (quoting Iqbal, 556 U.S. at 678).
A court must “construe[] the complaint in a light
most favorable to the plaintiff.” HDC, LLC v. City of
Ann Arbor, 675 F.3d 608, 611 (6th Cir. 2012).
B.

Fraud Claims

In alleging fraud by misrepresentation,
Federal Rule of Civil Procedure 9(b) requires a
plaintiff to plead with particularity “the time, place,
and content of the alleged misrepresentation on
which he or she relied; the fraudulent scheme; the
fraudulent intent of the defendants; and the injury
resulting from the fraud.” Fed. R. Civ. P. 9(b);
Sanderson v. HCA-The Healthcare Co., 447 F.3d
873, 877 (6th Cir. 2006) (quoting Yuhasz, 341 F.3d
559, 563 (6th Cir. 2003)); Glassner v. R.J. Reynolds
Tobacco Co., 223 F.3d 343, 346 (6th Cir. 2000) (“[A]
complaint alleging fraud must allege with
particularity those circumstances constituting
fraud”). Rule 9(b) requires a plaintiff “(1) to specify
the allegedly fraudulent statements; (2) to identify
the speaker; (3) to plead when and where the
statements were made; and (4) to explain what made
the statements fraudulent.” Republic Bank & Trust
Co. v. Bear Stearns & Co., Inc., 683 F.3d 239 (6th
Cir. 2012). At a minimum, a plaintiff must “allege
the
time,
place
and
contents
of
the
misrepresentation(s) upon which he relied.” Bender
v. Southland Corp., 749 F.2d 1205 (6th Cir. 1984).
The “conditions of a person’s mind may be alleged
generally,” but “the plaintiff still must plead facts
about the defendant’s mental state, which, accepted
as true, make the state-of- mind allocation ‘plausible
on its face.’” Republic, 683 F.3d at 247.

27a
A claim of fraud by omission, in so far as it
relates to failure to comply with a disclosure
requirement set forth by FDA regulations, is
expressly preempted under the FDCA. Hafer v.
Medtronic, Inc., 99 F.Supp.3d 844 (W.D. Tenn.
2015). (See also ECF No. 25 at PageIDs 201-03, 20607 (summarizing case law to explain that a claim
based on the failure to provide a medication guide in
accordance with FDCA requirements is preempted
by federal law).)
C.

Wrongful Death Claims

Tennessee’s
wrongful
death
statute,
Tennessee Code Annotated § 20-5-106(a), does not
create a new, independent cause of action for
surviving beneficiaries. Lynn v. City of Jackson, 63
S.W.3d 332, 335 (Tenn. 2001); Ki v. State, 78 S.W.3d
876 (Tenn. 2002) (“Beneficiaries do not have an
individual claim or cause of action for the wrongful
death of the decedent.”). “Tennessee’s wrongful
death statute is a ‘survival’ statute – it preserves
only the decedent’s cause of action.” Johnson v.
Memphis Light Gas & Water Division, 777 F.3d 838
(6th Cir. 2015). “The decedent’s survivors are only
asserting the decedent’s right of action on behalf of
the decedent.” Ki, 78 S.W.3d at 880. Beneficiaries
may only “recover damages for their individual
losses that arise pursuant to the right of action
vested in the decedent.” Id.
III.

Analysis

Defendant argues that the two remaining
counts in the Amended Complaint must be dismissed
for failure to state a claim.
(ECF No. 29-1.)

28a
Specifically, Defendant asserts that Plaintiff’s claim
of fraud and deceit in Count V still fails to satisfy the
pleading standards of Federal Rule of Civil
Procedure 9(b). (Id. at PageIDs 292-96.) Defendant
also argues that Plaintiff’s claim of wrongful death
fails as a matter of law because the underlying
theories of liability are without merit. (Id. at
PageIDs 296-99.)
A.

Fraud and Deceit

Count V of Plaintiff’s Amended Complaint
(fraud and deceit) alleges that that Defendant misled
Mr. McDaniel, his physician, scientific and medical
communities, the FDA, and the public regarding the
safety risks of amiodarone. (ECF No. 26 at PageID
242-48.) In the Amended Complaint, Plaintiff adds
additional language specifying that Defendant acted
fraudulently by failing to provide the Medication
Guide to Mr. McDaniel and putting forth affirmative
misrepresentations while marketing amiodarone on
its website and distribution centers. (Compare id.
with ECF No. 1 at PageIDs 32-35.) Defendant argues
that Plaintiff “has not pleaded any new facts to cure
her deficient complaint.” (ECF No. 29-1 at PageID
293.) Defendant additionally argues that Plaintiff’s
amended Count V fails to state a claim because “it
merely re-alleges that Upsher-Smith failed to
distribute a Medication Guide for amiodarone, a
claim the Court dismissed as preempted.” (Id. at
PageID 295.)
The Court agrees with Defendant that
Plaintiff’s Amended Complaint fails to plead fraud
by misrepresentation with the particularity required
by Federal Rule of Civil Procedure 9(b).
The

29a
Amended Complaint does not identify the time,
place, or content of the alleged misrepresentations.
Plaintiff merely states that Defendant continue to
market amiodarone on its website and distribution
centers, but does not specify the time period in
which amiodarone was marketed, the web address
the misrepresentations allegedly made at the
distribution centers. Plaintiff has not specified any
fraudulent statements, identified any speakers of
such statements, or pled when and where the
statements were made.
The additional language included in Count V
of the Amended Complaint largely consists of
allegations that Defendant acted with fraud and
deceit by failing to provide the Medication Guide to
Mr. McDaniel. These allegations appear to plead a
claim of fraud by omission. Though Plaintiff’s claim
of fraud by omission is pled with greater
particularity, any allegations regarding Defendant’s
failure to provide a Medication Guide are federally
preempted as the Court discussed in its previous
order. (See ECF No. 25 at PageIDs 206-07.) The
Court therefore grants Defendant’s Motion to
Dismiss with regard to Count V.
B.

Wrongful Death

In the Amended Complaint, Plaintiff
maintains her claim against Defendant for wrongful
death, alleging that the death of Johnny McDaniel
was caused by Defendant’s negligence (Count VI).
(ECF No. 26 at PageID 248.) Defendant argues that,
“because all of Plaintiff’s underlying theories of
liability have been dismissed or are without merit,

30a
Plaintiff’s purported cause of action for wrongful
death also fails.” (ECF No. 29-1 at PageID 296.)
Tennessee’s wrongful death statute does not
create a new cause of action for surviving
beneficiaries; rather, it merely preserves the
decedent’s claims. Plaintiff cannot assert a sole
cause of action for wrongful death and all of the
other causes of action in the Amended Complaint
have been dismissed. As a result, Defendant’s
Motion to Dismiss is granted with regards to Count
VI of the Complaint.
IV.

CONCLUSION

For the reasons stated above, Defendant’s
Motion to Dismiss (ECF No. 29) is GRANTED. All
claims asserted by Plaintiff against Defendant are
dismissed with prejudice.
IT IS SO ORDERED, this 25th day of May,
2017.
/s/ Jon P. McCalla
JON P. McCALLA
UNITED STATES DISTRICT JUDGE

31a
[ENTERED: May 25, 2017]
IN THE UNITED STATES DISTRICT COURT
FOR THE WESTERN DISTRICT OF
TENNESSEE WESTERN DIVISION
RITA McDANIEL,
Individually and as Personal
Representative of the Estate
of JOHNNY F. McDANIEL,
Deceased,

)
)
)
)
)
)
Plaintiff,
)
No.
) 2:16-cv-02604-JPM-cgc
v.
)
)
)
UPSHER-SMITH
)
PHARMACEUTICALS, INC.,)
)
Defendant.
)
)
JUDGMENT
JUDGMENT BY COURT. This action having come
before the Court on Defendant’s Motion to Dismiss
the Amended Complaint, filed on February 17, 2017
(ECF No. 29), and the Court having entered an
Order Granting the Motion to Dismiss (ECF No. 34),
IT IS THEREFORE ORDERED, ADJUDGED,
AND DECREED that, in accordance with the Order
Granting the Motion to Dismiss (ECF No. 34), all

32a
claims by Plaintiff against Defendant are hereby
DISMISSED with prejudice.
APPROVED:
/s/ Jon P. McCalla
JON P. McCALLA
UNITED STATES DISTRICT JUDGE
May 25, 2017
Date

33a
[ENTERED: August 2, 2018]
No. 17-5741
UNITED STATES COURT OF APPEALS
FOR THE SIXTH CIRCUIT
FILED
Aug 02, 2018
DEBORAH S. HUNT, Clerk
RITA McDANIEL,
INDIVIDUALLY AND AS PERSONAL
REPRESENTATIVE OF THE ESTATE
OF JOHNNY F. McDANIEL, DECEASED,

)
)
)
)
)
Plaintiff-Appellant,
)
)
v.
) ORDER
)
UPSHER-SMITH LABORATORIES, INC., )
)
Defendant-Appellee.
)
BEFORE: COLE, Chief Judge; SILER and
COOK, Circuit Judges.
The court received a petition for rehearing en
banc. The original panel has reviewed the petition
for rehearing and concludes that the issues raised in
the petition were fully considered upon the original
submission and decision of the case. The petition
then was circulated to the full court. No judge has
requested a vote on the suggestion for rehearing en
banc.

34a
Therefore, the petition is denied.
ENTERED BY ORDER OF THE COURT
/s/
Deborah S. Hunt, Clerk

35a
[ENTERED: February 6, 2017]
UNITED STATES DISTRICT COURT
WESTERN DISTRICT OF TENNESSEE
RITA McDANIEL,
Individually and as Personal
Representative of the Estate of
JOHNNY F. McDANIEL,
Deceased,
Plaintiff,
vs.
UPSHER-SMITH
PHARMACEUTICALS, INC.
Defendants.

)
)
)
)
)
)
) Civil Action No.:
) 2:16-cv-02604-JPM
)
)
)
)
)

AMENDED COMPLAINT
Comes Now RITA McDANIEL, individually
and as Personal Representative of the Estate of
JOHNNY F. McDANIEL, Deceased, herein referred
to as Plaintiffs, in the above numbered and styled
case, files this First Amended Complaint against
UPSHER-SMITH
PHARMACEUTICALS,
INC.
(hereinafter “Upsher-Smith” or “Defendant”) for
cause of action will show to the Court as follows:
I.

Introduction & Nature of Action

1.
JOHNNY F. McDANIEL, (hereinafter
“Johnny” or “McDaniel” or “Plaintiff’s Decendent”) is
an individual who resided in Cordova, Shelby
County, Tennessee before his untimely death on July
22, 2015. This cause of action is duly brought on
behalf of the estate of JOHNNY F. McDANIEL by

36a
the Personal Representative of the estate, RITA
McDANIEL (hereinafter “Rita” or “Rita McDaniel” or
“Plaintiff”).
Rita McDaniel resides in Cordova,
Shelby County, Tennessee. Johnny McDaniel was
prescribed, purchased, and ingested the drug
amiodarone (described more fully herein), which was
manufactured, promoted and/or sold or distributed
by Defendant and as a proximate cause thereof,
Johnny McDaniel suffered severe and debilitating
injury to his pulmonary system resulting in his slow
and painful death. Johnny McDaniel died as a
result of taking the drug, and his personal
representative files this amended complaint as a
result of Defendant’s wrongful conduct.
2.
Johnny McDaniel suffered from severe
pulmonary problems and death as the direct result
of consuming a product, amiodarone, which was
manufactured, promoted, supplied, sold, and
distributed by the Defendant.
3.
Amiodarone is sold as AMIODARONE
HYDROCHLORIDE TABLETS and other names,
manufactured and distributed by the Defendant.
Prescription, medical records and the NDC Number
of the tablets prescribed and ingested by Johnny
McDaniel
all
confirm
McDaniel
consumed
amiodarone; more particularly the amiodarone
manufactured by Upsher-Smith, actively promoted
for “off-label” use by Upsher-Smith and provided to
McDaniel without the mandated Mediation Guide.
4.
Johnny McDaniel was diagnosed with
atrial fibrillation.
5.
Defendant’s scheme involved and
continues to involve a calculated and deceitful sales

37a
and promotional campaign to include paid physician
to physician interactions specifically designed to be
seen as unbiased information, and an equally
egregious failure and refusal to take required,
timely, and accurate corrective actions and notice to
medical professionals and consumers to prevent
catastrophic injury and death to its customers, such
as Johnny McDaniel. Defendant Upsher-Smith
additionally benefited from the scheme and
continues to do so and supports the scheme by the
continued sale of amiodarone for “off-label” use by
atrial fibrillation patients such as McDaniel.
6.
Defendants, like many other drug
companies, have spent and spends millions of dollars
each year to persuade doctors to prescribe their
particular drugs. More particularly, Defendants
spent time and money promoting the use of
amiodarone “off-label” for patients with atrial
fibrillation such as McDaniel. There are, however,
strict FDA regulations about the form and content of
such promotion. In fact, it is unlawful for a
manufacturer to promote any drug for a use not
described in the approved labeling of the drug.
Defendant, by various sales efforts, continued to
promote the sale of amiodarone without concern for
unapproved uses and more particularly concern for
patients with atrial fibrillation. Defendants’ scheme
of promoting the use of amiodarone for “off-label”
atrial fibrillation has been so pervasive and insidious
so as to wrongfully influence medical professionals.
7.
The purpose of the federal regulations1
and requirements governing prescription drugs is to
1

21 U.S.C. §§ 331(d), 352(f), and 355.

38a
protect patients by ensuring drug manufacturers
subject prospective uses of their drugs to randomized
and well-controlled clinical trials. The purpose of
such trials is to determine whether the drug is safe
and effective for such uses, at least when sufficient
promise lies to make the cost of such randomized
trials worth incurring. These requirements are
meant to ensure that drug companies like the
Defendants, give physicians and medical personnel
trustworthy unbiased information to use in making
prescribing decisions, so that medications are
prescribed and branded appropriately and with
adequate and up to date warnings.
8.
A manufacturer’s duty to test a use
arises, under both common law and federal law,
particularly when the manufacturers learn of any
adverse events concerning its sale.
9.
As described in further detail herein, in
1985, the initial manufacturer and distributor in the
United States or “brand” manufacturer, Wyeth,
received FDA approval to market and sell
amiodarone only as a drug of last resort for patients
suffering
from
documented
recurrent
lifethreatening ventricular fibrillation and ventricular
tachycardia; and further, only such use when these
conditions would not respond to other available antiarrhythmic drugs and therapies.2
10.
Defendant was aware that Wyeth hired
agents and embarked on a course of conduct, the
purpose of which was to increase amiodarone sales
as an initial, first-line anti-arrhythmic medication, a

2

See NDA 18-972, Approval Letter, December 24, 1985.

39a
use for which amiodarone has never received FDA
approval; i.e., an “off-label” use.
11.
Defendant knew of the extreme dangers
and catastrophic injuries and death caused by
amiodarone, known through adverse events reporting,
customer and physician communications, and other
sources, which existed for years, when the Defendant
entered the market with amiodarone products.
12.
Upon information and belief, Defendant
recognized a significant profit potential in the
dangerous “off-label” promotion and sale of
amiodarone as a first-choice cardiac drug for non-life
threatening heart ailments; particularly atrial
fibrillation, a much more common non-life
threatening illness impacting millions of individuals.
13.
The Defendant tracked and had full
knowledge of the number of prescriptions written for
amiodarone to be given as a first-line cardiac drug,
and has, through various means, designed to conceal
their involvement, promoted and conspired together
and with others to promote the use of amiodarone as
an initial, first-line therapy for all arrhythmias and
other heart ailments.
14.
Defendant’s scheme was implemented
and enabled Defendant to eventually tap into the
enormous market for amiodarone in the United States.
15.
Upon information and belief, and at all
material times hereto, Defendant was aware from
multiple sources, that many of Defendant’s
amiodarone prescriptions were, and are currently,
written for “off-label” purposes, i.e., for the purpose
of controlling non-life threatening atrial fibrillation.

40a
16.
Defendant’s scheme, described in more
detail below, ultimately deceived physicians,
pharmacists, distributors and consumers into
believing that prescribing and taking amiodarone for
the “off-label” atrial fibrillation uses that Defendant
promoted was appropriate even though Defendant
knew FDA approval had not been granted for those
uses and, moreover, there was significant medicalscientific evidence indicating amiodarone was very
dangerous in those situations, and in fact, resulted
in serious pulmonary illness and toxicity, and death,
when so used.
II.

Parties

17.
At the time of his death, July 22, 2015,
Johnny McDaniel was retired. Johnny McDaniel
was a 78-year-old resident of Cordova in Shelby
County, Tennessee. Mr. McDaniel died at Methodist
LeBonheur Hospital in Germantown, Tennessee on
July 22, 2015.
18.
Plaintiff Rita McDaniel is an adult
individual and resident of Cordova, Shelby County,
Tennessee. Rita McDaniel is the widow of Johnny
McDaniel and Personal Representative of the Estate
of Johnny F. McDaniel.
19. Defendant Upsher-Smith Pharmaceuticals,
Inc. is a Minnesota corporation with its principal
place of business in Maple Grove, Minnesota.
Defendant
Upsher-Smith
regularly
conducts
business in Tennessee and throughout the United
States and is involved in the manufacture,
distribution, marketing, sale, labeling, and design of
amiodarone in the State of Tennessee and
throughout the United States as detailed below.

41a
20.
The Defendant conducts substantial,
systematic continuous, and regular business in
Tennessee, as well as throughout the United States
and is involved in the distribution, marketing, sale,
labeling, and design, of amiodarone in the State of
Tennessee and throughout the United States as
detailed below.
21.
At all material times, upon information
and belief, Defendant authorized and/or acted by and
through its officers, employees, agents, servants,
and/or representatives, including those actively
engaged in the legal defense of Defendant.
22.
At all material times, every reference
made to any corporate Defendant in this Amended
Complaint
includes
predecessors,
successors,
parents, subsidiary, affiliates, and divisions of the
corporation for the corresponding time period.
23.
Whenever reference is made to any act,
deed, or transaction of Defendant, the allegation
means that the corporation engaged in the act, deed,
or transaction by or through its officers, directors,
agents, employees, or representatives while they
were actively engaged in the corporation’s
management, direction, control, or business affairs.
Any Defendant that is a subsidiary of a foreign
parent acted as its parent company’s agent for its
parent’s U.S. sales.
III.

Jurisdiction and Venue

24.
Venue is proper pursuant to §28 U.S.C.
§81 and §91 because a substantial part of the events
or omissions giving rise to the claim occurred within
the District of Tennessee. The injuries at issue in

42a
this lawsuit occurred in the District of Tennessee
and the Plaintiff’s decedent was a citizen of the State
of Tennessee.
25.
Defendants conduct business in the
District of Tennessee. Defendant’s commercial
activities in the District of Tennessee include, but are
not limited to, the marketing, sale and distribution
of amiodarone and other pharmaceuticals.
IV.

Factual Background

26.
All prescription drugs require approval
by the Food and Drug Administration (hereinafter
“FDA”) before the drug may be marketed.
Manufacturers of new drugs must submit a new
drug application (hereinafter “NDA”) to the FDA.
An NDA must include information about the drug’s
safety and efficiency gleaned from clinical trials.3 It
must also propose a label reflecting appropriate use,
warnings, precautions, and adverse reactions.4
27.
For generic drugs, Congress passed the
Drug Price Competition and Patent Term
Restoration Act in 1984. This statute amended the
Food, Drug, and Cosmetic Act (hereinafter “FDCA”)
and is referred to as the Hatch-Waxman
Amendments to the FDCA. The Hatch-Waxman
Amendments provided an “abbreviated new drug
application” (hereinafter “ANDA”) procedure for
generic manufacturers.5 Generic manufacturers are
not required to repeat the clinical trials conducted by
name brand manufacturers. ANDA’s are approved
3

21 U.S.C. § 355(a)-(b).

4

21 C.F.R. § 201.56

5

21 U.S.C. § 355(j).

43a
based on the initial safety profile of the name brand
drug and are subject to all post-marketing events
and post-sales events, including, but not limited to,
collecting, tracking, and reporting adverse incident
reports regarding the drug.
28.
In 1985, brand manufacturer Wyeth
received FDA approval6 to market and sell the antiarrhythmic heart medication Cordarone® (amiodarone
hydrochloride is the generic formulation) under a
special “needs” approval without the usually
mandated rigorous and FDA approved, double-blind,
randomized clinical trials. Although the FDA has
urged Wyeth to conduct randomized clinical trials,
such trials have not been conducted. The FDA
approval for Cordarone® remains a special and
unusual “special needs” approval. The customary
and rigorous randomized clinical trials now required
by the FDA for all new drug applications have never
been conducted for amiodarone. Wyeth was the initial
manufacturer, promoter and distributor or “brand
manufacturer” of Cordarone® in the United States.
29.
Wyeth’s Cordarone® was approved only
as a drug of last resort for patients suffering from
documented recurrent life-threatening ventricular
fibrillation and ventricular tachycardia when these
conditions would not respond to other available antiarrhythmic drugs and therapies. Wyeth aggressively
and
successfully
marketed
Cordarone®
for
inappropriate “off-label” uses as a “first line antiarrhythmic therapy.”
30.
Wyeth also instituted and maintained
an active promotional campaign to physicians
6

See NDA 18-972, Approval Letter, December 24, 1985.

44a
touting the anti-arrhythmic benefits of amiodarone;
a campaign from which generic manufacturers such
as Defendants still benefit. The campaigns focused
on the use of the drug for atrial fibrillation and
failed to warn prescribing physicians of the potential
dangers associated with amiodarone toxicity and
dangers to atrial fibrillation patients. Wyeth’s
campaigns were pervasive and effective. The drug
wrongfully became a first line therapy for atrial
fibrillation because physicians were not warned of
many of the potential dangers of the drug. In fact
the brand manufacturer, Wyeth’s fraudulent and
misleading marketing campaigns resulted in
warning letters from the FDA to stop the false and
misleading promotion of the drug that downplayed
the risks and promoted the drug as a first line antiarrhythmic therapy.7 The FDA letters noted that it
is unlawful for a manufacturer to promote any drug
for a use not described in the approved labeling of
the drug.8 The purpose of this federal requirement
is to protect patients by ensuring drug
manufacturers subject prospective uses of their
drugs to randomize and well-controlled clinical trials
to determine whether the drug is safe and effective
for such uses. These requirements are meant to
ensure that drug companies like Defendant, would
give physicians and medical personnel trustworthy
information so that medications are prescribed
appropriately. Physicians may still prescribe drugs
for unapproved uses. These unapproved uses are
deemed “off-label” because they have not been
Warnings by the FDA to Wyeth began as early as 1988.
http://www.mcclatchydc.com/2003/11/04/28118/fda-oversight-ofoff-label-drug.html
7

8

See 21 U.S.C. §§ 331(d), 352(f), and 355

45a
approved by the FDA. (A pharmaceutical company
is permitted to disseminate certain information
about “off-label” uses, but such dissemination must
adhere to strict requirements. For instance, the
manufacturer must submit an application to the FDA
seeking approval of the drug for “off-label” use; the
manufacturer must provide its marketing materials
to the FDA prior to dissemination; the materials must
be in unabridged form; and the manufacturer must
include disclosures that the materials pertain to an
unapproved use of the drug, and, if the FDA deems it
appropriate, “additional objective and scientifically
sound information . . . necessary to provide objectivity
and balance.”9) The dissemination of information in
violation of these provisions violates the Food, Drug
and Cosmetic Act (hereinafter “FDC Act”).10 This law
also requires pharmaceutical companies to furnish
federal regulators with advance copies of any and all
information they disseminate.11 Any deviation from
these requirements violates FDA regulations.
31.
The brand manufacturer Wyeth received
approval for the manufacture, marketing, sale and
distribution of the generic formulation amiodarone
hydrochloride in 1998.12
As with all generic
bioequivalent approvals, Defendant Upsher-Smith
was required by the FDA to provide patients
prescribed the drug with all FDA approved labels,
9

21 U.S.C. § 360aaa, et seq

10

21 U.S.C. § 331(z)

11

21 U.S.C. § 360aaa

The approval letter noted on the FDA database is addressed
to Copley Pharmaceutical, Inc. and dated November 30, 1998.
http://www.accessdata.fda.gov/drugsatfda_docs/anda/98/74-739
_Amiodarone_Approv.pdf
12

46a
warnings and medication guides with information
exactly as required of the brand formulation
manufacturer, Wyeth, and as updated as directed by
Defendant took advantage of the
the FDA.13
pervasive brand innovator promotional activities of
Wyeth and Defendant’s versions of the drug directly
benefited from the decades of marketing of the drug
for “off-label” uses by Wyeth. The version of the
drugs produced by Defendant was also subject to the
same advertising, marketing, and promotional
requirements and restrictions set forth by the FDA
for Wyeth in their advertising, marketing, and
promotion of the drug Cordarone®. Defendant was
required by the FDA to provide patients prescribed
the drug with all FDA approved labels, warnings,
and medication guides with information exactly as
required of the brand formulation manufacturer,
Wyeth, and as updated as directed by the FDA.14 In
fact, the FDA letter to Wyeth, of which Defendant
was well aware, also specifically referenced the ongoing review and approval of any and all
promotional materials for the drug as well as
addressed
the
monitoring
and
reporting
15
requirements of the manufacturer.
32.
As with all generic bioequivalent
approvals, Defendant was required by the FDA to
provide patients prescribed the drug with all FDA
approved labels, warnings and Medication Guides
with information exactly as required of the brand
13

See 21 U.S.C. § 355(j)(2)(A)(v); § 355(j)(4)(G).

14

See 21 U.S.C. § 355(j)(2)(A)(v); § 355(j)(4)(G).

See Application 75-188 Approval Letter to Robert A.
Fermia dated February 24, 1999.
15

47a
formulation manufacturer, Wyeth, and as updated
as directed by the FDA.16 Defendant took advantage
of the pervasive promotional activities of Wyeth.
Defendant’s generic version of the drug directly
benefited from the marketing of the drug for “offlabel” uses by Wyeth as well as its own promotional
activities.17
33.
Prior to being prescribed amiodarone,
Johnny McDaniel was diagnosed with atrial
fibrillation that was not deemed life threatening.
Johnny McDaniel was not in a medical situation of
“last resort” as to the management of his atrial
fibrillation.
34.
Beginning in May of 2015 and
continuing on through June of 2015, and as a result
of the continuing sales efforts of Defendant, Dr.
James Litzow prescribed McDaniel a course of 200
mg amiodarone tablets for treatment of his non-life
threatening atrial fibrillation. McDaniel filled the
prescription and ingested the drug amiodarone
according to the instructions.18 Johnny McDaniel
was not aware that his use of the medication was for
an “off- label” use and, as noted above, he was not in
a situation of last resort as to his atrial fibrillation.
More importantly, McDaniel did not receive the
required Medication Guide from Defendant for the
prescriptions he filled at the Naval Branch Health
Clinic. McDaniel did not receive the Medication
Guide from his pharmacist because the Defendant
16

See 21 U.S.C. § 355(j)(2)(A)(v); § 355(j)(4)(G).

See Application 75-188 Approval Letter to Robert A.
Fermia dated February 24,1999.
17

18

Naval Branch Health Clinic

48a
did not provide Medication Guides to the distributors
and pharmacists for distribution to McDaniel with
his prescription. Because he did not receive the
Medication Guide, McDaniel received and ingested a
mislabeled drug. Correction of atrial fibrillation and
any use accept in situations of last resort were never
FDA approved uses of Cordarone® or its generic
equivalents. McDaniel’s prescription was for an “offlabel” use and without the benefit of the FDA
mandated Medication Guide. McDaniel was unaware
of the dangers he faced from the drug that caused
his injuries.
35.
The prescription for the amiodarone
tablets McDaniel received were identified as tablets
manufactured, marketed and distributed by UpsherSmith Pharmaceuticals, Inc. The amiodarone
ingested by McDaniel was the generic version of
Wyeth’s Cordarone®. This “off-label” prescription
and distribution of the drug to control a non-life
threatening atrial fibrillation, also a direct result of
the long term promotional efforts of Defendants and
without the required Medication Guide, was a
producing and proximate cause of Johnny
McDaniel’s physical condition and injuries from
amiodarone toxicity.
36.
McDaniel was not aware that his use of
the medication was for an “off-label” use and, as
noted above, he was not in a situation of last resort
as to his atrial fibrillation. More importantly, he did
not receive the key warning information in the
required Medication Guide from Defendant for the
prescriptions he filled at the pharmacies.

49a
37.
McDaniel was not provided the
Medication Guide19 or the appropriate and up to date
warning labels from Defendant that were required to
be given directly to McDaniel outside of his interaction
with Dr. Litzow to warn him of the serious and life
threatening side effects of amiodarone. The Defendant
manufacturer, Upsher-Smith, was responsible by
federal regulation for ensuring that the appropriate
warning labels and Medication Guides were provided
to McDaniel. Had the Medication Guide been provided
by Upsher-Smith to the distributor or his pharmacists
for distribution to him as required by FDA regulations,
McDaniel would have been aware of the serious lung
related side effects that would lead to his physical
condition and injuries as well as other issues. McDaniel
would not have taken amiodarone and would not have
incurred the serious and life threatening injuries
had he received the required Medication Guide.
38.
The serious side effects outlined in the
Medication Guide, all of which McDaniel
experienced after taking amiodarone, included
lung damage, shortness of breath, wheezing,
trouble breathing, coughing, tiredness, weakness,
nervousness, irritability, restlessness, decreased
concentration, and depression.20
The FDA requires that Medication Guides be issued with
certain prescribed drugs and biological products when the
Agency determines that certain information is necessary to
prevent serious adverse effects; patient decision- making
should be informed by information about a known serious side
effect with a product, or patient adherence to directions for the
use of a product are essential to its effectiveness.
http://www.fda.gov/Drugs/DrugSafety/ucm085729.htm
19

Medication Guide for amiodarone HCI. http://www.fda.gov/
downloads/Drugs/DrugSafety/UCM152841.pdf
20

50a
39.
Because
his
distributors
and
pharmacists were not provided a Medication Guide
to provide to him with his prescriptions by the
Defendant manufacturer, McDaniel did not know
that amiodarone “should only be used in adults with
life-threatening
heartbeat
problems
called
ventricular arrhythmias” and even then when “other
treatments did not work or were not tolerated.”21 He
did not know that any other use such as the use for
his atrial fibrillation was considered to be “off-label”
and McDaniel did not know of the corresponding
dangers associated with such uses.
40.
Because
his
distributors
and
pharmacists were not provided a Medication Guide
to give directly to him outside of his doctor’s office
and interaction as required by FDA regulations by
the Defendant manufacturer, McDaniel did not know
“the medicine stays in your body for months after
treatment is stopped.”22 The effects of amiodarone
are extremely long lasting. Amiodarone is fatsoluble, and tends to concentrate in tissues including
fat, muscle, liver, lungs, and skin and confers a high
volume of distribution and a long half-life; the amount
of time it takes for one-half of an administered drug
to be lost through biological processes (metabolism
and elimination). Because of this long half-life,
amiodarone’s dangerous properties continue to cause
injuries in patients such as McDaniel long after he
ceased using the drug, including, serious pulmonary
injuries. This information was unknown to McDaniel
Medication Guide for amiodarone HCI. http://www.fda.gov/
downloads/Drugs/DrugSafety/UCM152841.pdf
21

Medication Guide for amiodarone HCI. http://www.fda.gov/
downloads/Drugs/DrugSafety/UCM152841.pdf
22

51a
due to the failure of the Defendant manufacturer to
provide the Medication Guide to the distributors.
41.
Each manufacturer who ships a
container of an FDA approved drug product for
which a Medication Guide is required is responsible
for ensuring that Medication Guides are available
for distribution directly to patients with each
Defendant Upsher-Smith is a
prescription.23
manufacturer as defined by the FDA and is required
to provide the Medication Guides to the distributors
so that the distributors can provide the Medication
Guides to pharmacists who then can provide the
Medication Guides directly to the patient. The FDA
has recognized that “it is important that patients
receive appropriate risk information in the form of
Medication Guides in order to make informed
decisions about certain prescribed medications.” The
Medication Guides are to specifically provide
information directly to the patient outside of the
interaction with the physician. It is important to
note that the FDA has mandated that the warnings
included in the Medication Guides go directly to the
distributor and via the distributor and pharmacists
directly to the patient as an important notification
distributed outside and in addition to any warning or
information that is provided by the physician. Drugs
identified by the FDA for the Medication Guide
procedure are significantly dangerous to such a
degree that the FDA requires a warning outside of
information provided directly by the physician. The
FDA has expressed concern at the failure of drug
manufacturers in the distribution of the Medication
Guides to the distributors and that “the current
23

See 21 CFR § 208.24

52a
Medication Guide program is too cumbersome and
that it lacks a standard distribution system.”
Failure to provide the Medication Guide results in
the distribution of a mislabeled and illegal drug.
42.
The National Consumer Pharmacy
Association has also identified the failure of
manufacturers to ensure the distribution of
Medication Guides to distributors and thus to the
patients as a significant safety issue and called on the
FDA to “enforce current FDA MedGuide regulations
holding manufacturers accountable for providing
Medication Guides in sufficient number or the means
to produce Medication Guides in sufficient number,
to permit the authorized dispenser to provide a
Medication Guide to each patient who receives a
prescription for the drug product.”24 McDaniel did
not receive a Medication Guide because the
Defendant Upsher-Smith did not provide the
required Medication Guide to the distributors for
distribution to him by his pharmacists as required
by the FDA and did not ensure that the Medication
Guide was distributed to McDaniel.
43.
In the spring of 2015, McDaniel began
to experience many of the symptoms outlined in the
Medication Guide to include shortness of breath,
wheezing, trouble breathing, coughing, tiredness,
weakness, nervousness, irritability, restlessness,
decreased concentration, and depression.
44.
McDaniel’s condition continued to
deteriorate. He experienced increasing pulmonary
issues to include shortening of breath, deep cough
Use of Medication Guides to Distribute Drug Risk Information
to Patients, Colleen Brennan, RPh; Bryan Ziegler, PharmD, MBA
24

53a
and difficulty in doing the active life that he always
enjoyed.
45.
McDaniel was admitted to Methodist
LeBonheur Hospital on June 22, 2015 with severe
shortness of breath and remained in the hospital
until his death on July 22, 2015.
46.
At all material times, amiodarone
caused and contribute to severe and disabling medical
conditions and death, such as those experienced by
Johnny F. McDaniel, including, without limitation,
the following: pulmonary toxicity, pulmonary fibrosis,
hepatic damage and failure, neurotoxicity, neonatal
hypothyroidism, birth defects, optic neuritis, toxic optic
neuropathy, blindness, peripheral neuropathy, heart
damage and failure, hypotension, serious exacerbation
of arrhythmias, and congestive heart failure.
47.
Upon information and belief, Defendant,
has received information concerning deaths and
serious injury resulting from the use of amiodarone.
48.
Upon information and belief, Defendant
has received information concerning cases of severe
medical conditions resulting from the use of
amiodarone, including, without limitation, pulmonary
toxicity, pulmonary fibrosis, lung damage, hepatic
damage and failure, neurotoxicity, peripheral
neuropathy, neonatal hypothyroidism, optic neuritis,
toxic
optic
neuropathy,
blindness,
serious
exacerbation of arrhythmias, and congestive heart
failure such as that experienced by Johnny McDaniel.
49.
Healthcare providers, as well as
patient-consumers reported these events, upon
information and belief, directly to the company.

54a
50.
In addition to these direct notices of
adverse events, the FDA had, and continues to have,
in effect, an adverse reaction surveillance system for
all regulated drugs, including amiodarone, called the
Adverse Event Reporting System (AERS).
51.
Upon information and belief, the AERS
has placed Defendant on notice of numerous
instances of catastrophic injuries caused by ingestion
of amiodarone.
52.
At all material times, Defendant failed
to disclose to the FDA, healthcare professionals,
consumers, or McDaniel, of the information they
possessed concerning the incidents and actual
adverse medical events, injuries, and deaths suffered
by amiodarone users. Instead, upon information and
belief, the Defendant actively took advantage of the
promotional efforts of innovator brand drug
manufacturer Wyeth, for “off-label,” unapproved
uses as described herein through various means as
well as its own efforts, including, but not limited to,
the following:
m. Direct-to-physician and direct-to-pharmacist
promotion through sales representatives;
n. Promotion
through
funding
and
manipulation of so-called “educators” who
organize and arrange continuing medical
education (CME) courses for physicians
and pharmacists;
o. Formulation of unlawful conspiracies with
certain medical marketing and medical
“education” entities to promote – without
appearing to promote – “off-label” uses;

55a
p. Sponsorship and funding of the production
of CME materials;
q. Cultivation and development of so-called
“opinion leaders” in local medical
communities and support for the careers and
research of those physicians, pharmacists,
and researchers who advocate off-label uses;
r. Sponsorship of journal supplements and
symposia on “off-label” uses;
s. Placing (through sponsorship of limited
trials, studies, and surveys) of medical
literature databases showing positive
effects (already established) on risk factors
with the twin purposes of overwhelming
any independent study showing negative
effects on different risk factors, and causing
earnest but time-crunched physicians to be
impressed with the sheer quantity of
favorable (but redundant) studies on
MedLine, or medical library, search;
t. Media advertisements and brochures, some
of which were disguised as “educational
materials”;
u. Coordination of physician-to-physician
interactions that are biased toward “offlabel” usages;
v. Internet listings that omit important
warnings and information; and w. Various
other forms of marketing and promotion.
53.
Upon information and belief, in
accepting the benefits of brand innovator Wyeth’s

56a
efforts in promoting “off-label” uses of Cordarone®
by sponsoring CME conferences and materials,
journal supplements, redundant trials, and the work
and careers of favorably disposed opinion leaders,
Defendant would sometimes escape disclosure for
any role at all in the presentation of its desired view.
54.
Additionally, upon information and
belief,
Upsher-Smith,
and/or
their
agents’
pharmaceutical sales representatives and materials
and sources actively promoted their generic
amiodarone in the stream of commerce for the “offlabel” uses openly promoted by Wyeth.
55.
At all materials times, despite FDA
warnings and thousands of adverse patient
experiences, Defendant continued their fraudulent
marketing, promotional, and sales practices through
the present date.
56.
At all material times, which Defendant
concealed information about catastrophic injuries
and death, and thousands of serious adverse medical
events from the FDA, health care professionals, and
consumers, including Johnny McDaniel.
57.
At all material times, the amiodarone,
manufactured and/or supplied by Defendant were
and are unaccompanied by proper warnings
regarding all possible adverse side effects and
comparative severity and duration of such adverse
effects; the warnings given did not and do not
accurately reflect the severity or duration of the
adverse side effects or the true potential and/or
likelihood or rate of the side effects. This is
particularly so with regard to “off-label” use.

57a
58.
At all material times, Defendant failed
to warn of material facts regarding the safety and
efficacy of amiodarone.
59.
For example, although Defendant knew,
should have known, and currently knows that the
majority of patients consuming amiodarone are older,
including those aged 55 and over such as McDaniel,
Defendant has failed and refused to conduct testing,
studies, surveys, and/or report the results of same
regarding amiodarone use in this age group.
60.
At all material times, the amiodarone
manufactured, distributed, and/or supplied by
Defendant was defective due to inadequate postmarketing warning and instruction because, after
Defendant knew or should have known of the risk of
injury from amiodarone, especially in “off-label” use,
Defendant failed to provide adequate and required
warnings to physicians, users or consumers of
amiodarone, including the Plaintiff McDaniel, and
continued to aggressively sell amiodarone, including
for “off-label” use.
61.
At all material times, while Defendant
concealed this adverse event information, they
simultaneously engaged in a massive and fraudulent
marketing and promotional scheme in which they
aggressively and fraudulently promoted amiodarone
for uses never authorized by the FDA. In fact,
Defendant marketed, promoted, and “pushed”
amiodarone, not as a drug of last resort, but as a
drug suitable as an initial therapy and to treat nonlife-threatening heart conditions.
62.
At all material times, Defendant
respectively, also promoted amiodarone for heart

58a
conditions less severe than life-threatening
ventricular arrhythmia (the only purpose for which
the drug originally received FDA approval).
63.
Defendant engaged in a conspiracy of
silence regarding “off-label” use, choosing to market
and promote the drug for “off-label” use, and then
feigning ignorance before the FDA, health care
providers, and consumers. They failed and refused to
conduct thorough testing on the side effects, despite
knowing that their scheme to promote the drug for
“off-label” uses had been, and continues to be,
successful.
64.
Defendant has engaged in this
calculated and coordinated silence despite their
knowledge of the growing public acceptance of
misinformation and misrepresentations regarding
both the safety and efficacy of the use of amiodarone,
and did so because the prospect of significant future
profits outweighed their concern regarding health
and safety issues, all to the significant detriment of
the public and Johnny McDaniel.
65.
At all material times, Defendant’s
affirmative misrepresentations and omissions have
so infected the market in the United States that
physicians and consumers relied on Defendant’s
fraud, respectively, to the detriment of their patients
and themselves.
66.
Nevertheless, at all material times, the
warnings for amiodarone, in effect during the
relevant time period were vague, incomplete, and/or
otherwise wholly inadequate, both substantively and
graphically, to alert prescribing physicians,

59a
pharmacists, consumer patients and McDaniel of the
actual risks associated with this drug.
67.
At all material times, Defendant’s
deception, concealment, and fraudulent marketing
and promotion has been so pervasive throughout the
United States, that prescribing physicians and
consumer patients have during the relevant time
period still believe that amiodarone, is an acceptable
initial, secondary, or otherwise early-stage antiarrhythmic intervention. These deceptive techniques
served (and continue to serve) Defendant in several
ways, including: (1) instilling Defendant’s desired view
about the drug’s “off-label” uses among health care
providers; (2) Defendant hoped that, by concealing its
agency in these activities, they would escape the legal
ramifications of its unlawful promotional activities;
and (3) boost Defendant’s profits for the drug.
68.
At all material times, Defendant owed a
duty to the health care providers, consumer patients,
and McDaniel herein, to engage in honest and nondeceptive practices; exercise due care under the
circumstances, to exercise due care in the design,
manufacture, marketing, promotion, sale, and
distribution of amiodarone; to provide a reasonably
safe and non-defective drug; to provide adequate and
appropriate warnings for said drug; to comply with
federal guidelines, rules, and regulations; and/or to
sell and distribute the drug in accordance with FDA
restrictions.
69.
At all material times, Defendant
marketed amiodarone, as having approval,
characteristics, uses, and benefits that the drug did
not have.

60a
70.
At all material times, Defendant, did
design, create, test, develop, label, sterilize, package,
manufacture, market, promote, advertise, distribute,
sell, warn, and/or otherwise caused the product to be
placed into the stream of commerce, and ultimately
to be ingested by McDaniel.
71.
At all material times, Defendant
willfully failed and refused to actively and
affirmatively monitor amiodarone’s “off-label,”
unapproved uses insofar that such uses caused
catastrophic injuries and death. Defendant however,
continued to sell amiodarone for unapproved uses.
72.
At all material times, Defendant
engaged in a continuing course of fraud,
concealment, material nondisclosure and omission,
upon Plaintiffs which prevented Plaintiffs from
knowing or having reason to know of Defendant’s
misconduct.
V.

Amiodarone Did Not Undergo The
Rigorous FDA Approval Process
Required For Federal Preemption

73.
Brand manufacturer Wyeth introduced
Cordarone® into the United States’ stream of
commerce. Wyeth received approval for Cordarone®
from the FDA only as a drug of last resort for
patients suffering from documented recurrent lifethreatening ventricular fibrillation and ventricular
tachycardia; and further, only when these conditions
would not respond to other available anti-arrhythmic
drugs and therapies. Furthermore, despite repeated
requests by the FDA at the outset of the review
process and throughout the history of the drug,
neither Wyeth, Upshaw the maker of the “other”

61a
brand name version of amiodarone or the generic
drug manufacturers of the product have submitted
the drug to the rigorous randomized clinical trials
required for FDA drug approval.
74.
Amiodarone as the drug is commonly
known was developed in Belgium in the 1960’s as a
drug for treating a common heart condition known
as angina. At that time, amiodarone was released for
marketing in most countries OTHER than the
United States.
75.
The misunderstanding and use of
amiodarone as a drug “with little side effects”
became widespread except in the United States. In
the 1970’s American Doctors began obtaining
amiodarone from Canada and Europe for use in their
patients with life-threatening arrhythmias who did
not respond to other drugs. This activity was
sanctioned by the FDA but only on a limited basis.
Initial results were promising and by the mid-1980’s
literally tens of thousands of Americans were taking
the drug without FDA approval or testing. American
doctors apparently monitored the conditions of their
patients more rigorously than their colleagues
around the world because they found the drug
produced a bizarre series of side effects that doctors
around the world seemed to have missed and that
were not caught because of the lack of testing or
randomized trials.
76.
The FDA was essentially forced to
release amiodarone for marketing in the United
States by the mid-1980’s when foreign manufacturers
of the drug threatened to cut off the supply to
Americans after having supplied the drug for free to
thousands of Americans for over five years.

62a
77.
As a result, unlike any other drug in
modern history, amiodarone became FDA approved
without rigorous, FDA sanctioned randomized
clinical trials. The legal requirements for preemption
applied to drug litigation for FDA approved drugs
are not present in amiodarone. Amiodarone has
never been subjected to double blind testing as
mandated by the FDA.
78.
Amiodarone has been determined to
affect many different organs in many ways. First,
the drug takes many weeks to achieve the maximum
effectiveness. Amiodarone is literally “stored” in
most of the tissues of the body and to “load” the body
with the drug all the tissues need to be saturated.
Therefore, the typical loading regimen of amiodarone
is to use extremely large dosages of the drug for the
first week to two weeks then to taper the dosage over
the next month. It is not unusual to give a patient
1200 to 1600 mg dosage a day when starting the
drug and to maintain the patient on as little as 100
to 200 mg per day on a chronic basis.
79.
Amiodarone leaves the body very
slowly. The drug is not excreted like most drugs
through the liver or kidney but is only lost when
amiodarone containing cells such as skin cells or
cells from the GI tract or lost. Therefore, even when
it is decided that the patient needs to stop taking
amiodarone the drug remains in the system in
measurable quantities for months and even years.
80.
Most importantly, because the drug is
stored in many different types of tissues it can cause
side effects that affect many different types of
organs. Some of the side effects take months and
years to develop. Constant diligence is needed.

63a
81.
Amiodarone causes many horrific side
effects that have resulted in its restricted use in the
United States including; causing blindness, it causes
deposits to form on the cornea of the eyes, a
condition in virtually everyone who takes the drug;
amiodarone causes a very disfiguring blue-grey
discoloration of the skin, generally in areas of
exposure to the sun; amiodarone often sensitizes
the skin to sunlight so that even trivial exposure
results in severe sunburns; amiodarone causes
hypothyroidism-low thyroidism, - a condition relatively
easy to treat with thyroid medication. Some patients
develop hyperthyroidism-high thyroid, which is more
dangerous and more difficult to treat. Amiodarone
can cause liver toxicity; therefore, liver enzymes
need to be monitored periodically. Amiodarone can
cause severe gastric reflux, caused by a paralysis of
the sphincter at the end of the esophagus.
82.
The most serious side effect of
amiodarone and the one requiring the patient
Medication Guide is pulmonary toxicity-lung disease.
Amiodarone produces two types of lung disease-first,
acute pulmonary syndrome, which looks and acts
like typical pneumonia, with a sudden onset of cough
and shortness of breath, a condition that rapidly
improves once the amiodarone is stopped. The
second type is more dangerous. This condition
involves a gradual, almost unnoticeable, stiffening of
the lungs that both the doctor and patient overlook
until finally severe irreversible lung damage is done.
This condition can occur quickly after the taking of
the drug or can occur years after the drug has begun.
Lung toxicity has been found by the FDA to be 17%
and fatalities from pulmonary toxicity have been
found to be 10% of those taking the drug. These

64a
statistics come from those taking the drug for
conditions the drug is not approved for- arterial
fibrillation, as well as the ventricular condition it is
approved for as a drug of last resort after other
treatments have been tried and have failed.
83.
Amiodarone did not undergo the
rigorous clinical randomized trials all other FDA
approved drugs other than a few “grandfathered”
drugs with long market histories have undergone.
Despite repeated requests, demands and even
threats from the FDA the manufacturers of
amiodarone and its FDA labeled “brand-names”
Wyeth’s Cordarone and Upshaw’s Pacerone®, have
never undergone the type of clinical trials that would
show its defects or the benefits verses the risks
associated with the drug’s use. Despite the economic
argument that the patent has expired, or that the
costs of testing is too high to justify the investment
amiodarone continues to generate enormous
revenues for the drug manufacturers without the
public having the protection of FDA randomized
clinical trials.
84.
The only trials amiodarone underwent
were non-scientific, reporting of a combination of
various patient results combined to obtain statistical
data that is neither randomized or reliable and
which interestingly enough did not even provide the
statistical data that has been determined by the
FDA to be accurate for the drug and required in the
black box labeling of the product. Obviously, this
combination of reporting of various patients was
non- scientific and cannot serve as the basis for a
claim of preemption.

65a
85.
Without rigorous, scientific, clinical
trials and randomized testing approved by the FDA
the reasons for FDA preemption do not exist and
cannot be sustained. Neither the so-called ‘brand
names” or the generic versions of the drug offer any
protection to the public from the FDA approval
process. Since the manufacturers will not undergo
FDA approved testing they cannot use the FDA
approval process as a shield from liability when
sued. None of the reasons articulated by the United
States Supreme Court for the protection preemption
provides are present with amiodarone. None of the
costs benefits analysis is present. In addition, none
of the regulatory analysis argument and certainly no
Federalism argument are present to support
preemption.
86.
This is not to say the FDA completely
disregarded its regulatory or enforcement powers
regarding amiodarone. While no testing justifying
preemption was ever performed, when the statistical
evidence of the dangers of amiodarone and its many
side effects became known, the FDA repeatedly
amended the labeling requirements for amiodarone,
mostly resulting from public pressure and enacted a
requirement that the drug manufacturer directly
provide the patient a FDA approved “Medication
Guide” by ensuring distribution of the Medication
Guides to the distributors and then to the patient
along with the drug. Due to the failure to conduct
required randomized clinical testing by the Wyeth,
Plaintiff is not preempted from claiming the
Defendant illegally marketed the product for “offlabel” use, and is not preempted from claiming that
the product itself is unreasonably dangerous as it
was packaged, marketed, designed, manufactured

66a
and sold. Most importantly, Plaintiff is not
preempted from claiming Defendant failed to warn of
the dangers of the product by failing to provide the
FDA required “Medication Guide” consisting of
ONLY language the FDA approved to go directly to
the patient. The failure to provide the FDA
“Medication Guide” is a stronger claim than merely
alleging the package insert or labeling fails to inform
or warn patients or consumers of the dangers of the
product. The failure to provide each patient a
“Medication Guide” by failing to provide the
Medication Guides to the distributor for ultimate
distribution to the patient with the drug is a direct
violation of the FDA’s mandate to the manufacturers
of the drug intended to warn patients directly
outside the communication with the prescribing
physician, of the very dangers of amiodarone toxicity
that injured Johnny McDaniel.
FIRST CAUSE OF ACTION
(Strict Products Liability – Failure to Warn)25
87.
Plaintiff incorporates by reference all
preceding paragraphs of this Amended Complaint as
though set forth in their entirety and further alleges
as follows:
88.
At all times relevant to this action,
Defendant engaged in the business of designing,
manufacturing,
testing,
marketing,
labeling,
distributing and placing into the stream of commerce
Plaintiff recognizes that the Court has dismissed this Cause
of Action as referenced in its Order dated January 26, 2017,
attached hereto as Exhibit 1. This Cause of Action remains in
tact in this Amended Complaint to preserve the issue for appeal.
25

67a
amiodarone for sale to, and use by, members of the
public including Plaintiff.
89.
Amiodarone posed increased risks of
harm and side effects that were known or knowable
to Defendant by the use of scientific knowledge
available before, at and after the time of manufacture,
distribution, and sale of amiodarone. Defendant knew
or should have known of the defective condition,
characteristics, and risks associated with said
product, as previously set forth herein. Defendant
consciously disregarded this increased risk of harm by
failing to warn or such risks; unlawfully concealing the
dangerous problems associates with the “off-label” use
of amiodarone; and continuing to market, promote, sell
and defend such use of amiodarone without requiring
the concurrent dissemination of the Medication Guide.
90.
Amiodarone that was manufactured,
distributed, and sold by the Defendant to Plaintiff
was in a defective condition that was unreasonably
and substantially dangerous to any users of ordinary
consumers of the device, such as Plaintiff. Such
ordinary consumers, including Plaintiff, would not and
could not have recognized or discovered the potential
risks and side effects of amiodarone as set forth herein.
91.
The warnings and directions provided
with amiodarone by Defendant failed adequately to
warn of the potential risks and side effects of
amiodarone and the dangerous propensities of said
medication, which risks were known or were
reasonably scientifically knowable to Defendant
when, among other things, they failed to ensure the
Medication Guide was provided to all consumers,
including Plaintiff.

68a
92.
Defendant’s amiodarone products were
expected to and did reach Plaintiff and his
physicians and pharmacists without substantial
change in their condition as manufactured,
distributed, and sold by Defendant. Additionally,
Plaintiff’s physician prescribed and Plaintiff used
amiodarone in the manner in which amiodarone was
intended to be used by Defendant, making such use
reasonably foreseeable to Defendant.
93.
As a direct and proximate result of
Defendant’s wrongful conduct, Plaintiff sustained
severe physical injuries, severe emotional distress,
mental anguish, economic losses and other damages,
including death. As a direct and proximate result,
Plaintiff expended money for medical bills and
expenses. Plaintiff is entitled to compensatory and
equitable damages in an amount to be proven at trial.
94.
Defendant’s
lack
of
sufficient
instructions or warnings prior to, on, and after the
date of Plaintiff’s initial use of amiodarone, including
but not limited to failing to ensure he was timely
provided the Medication Guide, was a substantial
factor in causing Plaintiff’s injuries, losses and
damages, as described herein.
SECOND CAUSE OF ACTION
(Negligence – Failure to Warn)26
95.
Plaintiff incorporates by reference all
preceding paragraphs of this Amended Complaint as
Plaintiff recognizes that the Court has dismissed this Cause
of Action as referenced in its Order dated January 26, 2017,
attached hereto as Exhibit 1. This Cause of Action remains in
tact in this Amended Complaint to preserve the issue for appeal
26

69a
though set forth in their entirety and further alleges
as follows:
96.
At all relevant times, Defendant
engaged in the business of designing, manufacturing,
testing, marketing, labeling, distributing and placing
into the stream of commerce amiodarone for sale to,
and use by, members of the public.
97.
Amiodarone posed increased risks of
harm and side effects that were known or knowable to
Defendant by the use of scientific knowledge available
before, at and after the time of manufacture,
distribution, and sale of amiodarone. Defendant
knew or should have known of the defective
condition, characteristics, and risks associated with
said product, as previously set forth herein. Defendant
negligently disregarded this increased risk of harm
by failing to warn of such risks; unlawfully concealing
the dangerous problems associated with the “offlabel” use of amiodarone; and continuing to market,
promote, sell and defend such use of amiodarone.
98.
The warnings and directions provided
with amiodarone by Defendant failed adequately to
warn of the potential risks and side effects of
amiodarone and the dangerous propensities of said
medication, which risks were known or reasonably
scientifically knowable to Defendant by, among other
things, not providing the Medication Guide as
required by law. Defendant owed a duty to Plaintiff
to ensure Plaintiff and his physicians were
adequately and completely warned of all potential
serious complications regarding the use of
amiodarone and received the Medication Guide. As
alleged above, Defendant knew and had reason to

70a
know that amiodarone cause increased risk of harm
to the Plaintiff and other consumers like him.
Defendant disregarded this increased risk of harm
by failing to warn of such risks; unlawfully
concealing the dangerous problems associated with
the use of amiodarone; and continuing to market,
promote, sell and defend amiodarone.
99.
Defendant, as the manufacturers,
designers and marketers of the amiodarone
medication ingested by Plaintiff, owed a duty of care
to Plaintiff and other consumers of amiodarone, to
ensure they receive proper warnings regarding the
risks of use of amiodarone. Plaintiff and/or his
physicians reasonably relied upon Defendant’s
representations that amiodarone was not only
appropriate (FDA approved) for the treatment of
atrial fibrillation but also was an appropriate “first
line” drug used in the treatment of this condition.
Further, Plaintiff reasonably relied upon Defendant
to disclose all serious side effects in the use of
amiodarone so those side effects may be considered
by the physician in his prescribing choices.
100. Amiodarone drugs ingested by Plaintiff
were expected to and did reach Plaintiff and his
physicians and pharmacist without substantial
change in their condition as manufactured,
distributed, and sold by Defendant. Additionally,
Plaintiff used amiodarone in the manner in which
amiodarone was intended to be used by Defendant,
making such use reasonably foreseeable to Defendant.
101. As a direct and proximate result of
Defendant’s manufacture, distribution, and sale of
amiodarone, Plaintiff suffered the injuries, losses
and damages herein described.

71a
102. As a direct and proximate result of
Defendant’s wrongful conduct, Plaintiff sustained
severe physical injuries, severe emotional distress,
mental anguish, economic losses and other damages,
including death. As a direct and proximate result,
Plaintiff expended money for medical bills and
expenses. Plaintiff is entitled to compensatory and
equitable damages in an amount to be proven at trial.
THIRD CAUSE OF ACTION
(Negligence – Marketing and Sale)27
103. Plaintiff incorporates by reference all
preceding paragraphs of this Amended Complaint as
though set forth in their entirety and further alleges
as follows:
104. Prior to, on, and after the date of
Plaintiff’s decedent’s use of amiodarone, Defendant
was aware that the FDA had not approved
amiodarone for the treatment of atrial fibrillation.
To the contrary, because of its dangers, amiodarone
was only FDA approved for the treatment of
ventricular fibrillation as a drug of last resort after
all other treatments had failed. Despite this,
Defendant marketed and sold amiodarone for the
treatment of atrial fibrillation. Not only was it
marketed by Defendant in an “off-label” manner, it
was marketed and sold as a “first line” drug to be
used in the treatment of atrial fibrillation.
Defendant owed a duty to Plaintiff to market and sell
Plaintiff recognizes that the Court has dismissed this Cause
of Action as referenced in its Order dated January 26, 2017,
attached hereto as Exhibit 1. This Cause of Action remains in
tact in this First Amended Complaint to preserve the issue for
appeal.
27

72a
amiodarone for uses approved by the FDA and for
uses for which it has been established as efficacious
and safe. As alleged above, Defendant either knew or
reasonably has reason to know that amiodarone was
not approved for the treatment of atrial fibrillation
and was most certainly not an appropriate first line
treatment. Defendant disregarded the risk of harm
create by the marketing and sale of amiodarone for
these “off-label” uses.
105. Defendant, as the manufacturers,
designers and marketers of amiodarone, owed a duty
of care to Plaintiff and other consumers of
amiodarone to ensure it marketed and sold it only
for approved uses. Instead, Defendant engaged in a
campaign to market the drug for “off-label” uses, in
particular for the treatment of atrial fibrillation.
This concerted and systemic effort to persuade
physicians that amiodarone was not only safe and
efficacious for the treatment of atrial fibrillation but
also approved for that use, has led a generation of
cardiologists and other cardiac specialists to
incorrectly believe amiodarone is appropriate for the
treatment of atrial fibrillation.
106. Defendant’s amiodarone drug products
were expected to and did reach Plaintiff’s decedent and
his physician and pharmacists without substantial
change in their condition as manufactured,
marketed, and sold by Defendant. Additionally,
Plaintiff’s decedent’s physician prescribed, and
Plaintiff used, amiodarone in the manner in which
amiodarone was marketed and sold by Defendant,
making such use reasonably forseeable to Defendant.
107. As a direct and proximate result of
Defendant’s manufacture, marketing, and sale of

73a
amiodarone, Plaintiff’s decedent suffered
injuries, losses and damages herein described.

the

108. Defendant’s negligent marketing and
sale of amiodarone was a substantial factor in
causing Plaintiff’s decedent’s injuries, losses and
damages, as described herein.
109. As a direct and proximate result of
Defendant’s wrongful conduct, Plaintiff’s decedent
sustained severe physical injuries, severe emotional
distress, mental anguish, economic losses and other
damages, including death. As a direct and proximate
result, Plaintiff’s decedent expended money for
medical bills and expenses. Plaintiff is entitled to
compensatory and equitable damages in an amount
to be proven at trial.
FOURTH CAUSE OF ACTION
(Negligence Per Se)28
110. Plaintiff incorporates by reference all
other paragraphs of this Amended Complaint as if
fully set forth herein.
111. Defendant owed a duty to Plaintiff’s
decedent to market and sale amiodarone only for
uses approved by the FDA and for uses for which it
has been established as efficacious and safe.
112. Defendant violated this duty by
marketing, promoting and selling amiodarone for
Plaintiff recognizes that the Court has dismissed this Cause
of Action as referenced in its Order dated January 26, 2017,
attached hereto as Exhibit 1. This Cause of Action remains in
tact in this First Amended Complaint to preserve the issue for
appeal.
28

74a
uses not approved by the FDA. Defendant violated
this duty by selling amiodarone without supplying
the Medication Guide required by the FDA. This
concerted and systemic effort to persuade physicians
that amiodarone was not only safe and efficacious for
the treatment of atrial fibrillation but also approved
for that use, has led a generation of cardiologists and
other cardiac specialists to incorrectly believe
amiodarone is appropriate for the treatment of atrial
fibrillation.
113. As a direct and proximate result of
Defendant’s wrongful conduct, Plaintiff’s decedent
sustained severe physical injuries, severe emotional
distress, mental anguish, economic losses and other
damages, including death. As a direct and proximate
result, Plaintiff’s decedent expended money for
medical bills and expenses. Plaintiff is entitled to
compensatory and equitable damages in an amount
to be proven at trial.
FIFTH CAUSE OF ACTION
(Fraud and Deceit)
114. Plaintiff incorporates by reference all
other paragraphs of this Amended Complaint as if
fully set forth herein.
115. Defendant, having undertaken to
prepare, design, research, develop, manufacture,
inspect, label, market, promote and sell amiodarone,
owed a duty to provide accurate and complete
information to Plaintiff’s decedent, his pharmacist
and physician, and the public regarding amiodarone,
including and more particularly, specific information
and facts such as included in the Medication Guide

75a
concerning the dangers and risks to Plaintiff’s
decedent’s health which Plaintiff’s decedent would
have been aware if Defendant had complied with the
requirements associated with the mandatory
distribution of the Medication Guide directly to
Plaintiff’s decedent. Important facts that did not
reach McDaniel such as, amiodarone is only for
situations of last resort and only in situations
involving ventricular tachycardia, not atrial
fibrillation from which McDaniel suffered. Important
facts that would have saved McDaniel’s life.
116. Defendant misled Plaintiff’s decedent,
Plaintiff’s decedent’s pharmacist and physician, and
the public into believing that amiodarone was safe
and effective for use in the treatment of atrial
fibrillation, and engaged in deceptive, misleading
and unconscionable promotional or sales methods to
convince health care professionals and patients to
use amidarone by offering and promoting
amiodarone for sell via its websites and distribution
centers as set forth above, even though Defendant
knew or should have known that amiodarone was
unreasonably unsafe for the specific illness suffered
by Plaintiff’s decedent and thousands of other
individuals affected by atrial fibrillation. Defendant
also failed to take steps to affirmatively warn health
care professionals and the public to include
Plaintiff’s decedent about the life threatening
pulmonary fibrosis and other risks of amiodarone
designed, marketed and sold by Defendant.
117. Defendant’s advertising program and
promotional items to include offering the dangerous
drug for sell via its website and distribution centers,
by containing affirmative misrepresentations and

76a
omitting material facts such as the risks of death
from pulmonary fibrosis and other serious and
dangerous side effects, falsely and deceptively sought
to create the image and impression that amiodarone
was safe for human use for the treatment of atrial
fibrillation, had no unacceptable side effects or more
specifically failed to provide information to Plaintiff’s
decedent via the mandated Medication Guide which
outlined the inherent dangers for atrial fibrillation
patients such as Plaintiff’s decedent, and did not
inform Plaintiff’s decedent that this dangerous drug
would result in a painful death.
118. Defendant actively concealed, failed to
disclose, misstated, downplayed and understated the
health hazards and risks associated with the use of
amiodarone in a manner that any reasonable person,
to include Plaintiff’s decedent, would view the
omission as material to any decision to take the
medication. Defendant, through their promotional
practices, deceived potential treating physicians,
Plaintiff, other patients, and the public. Defendant
falsely and deceptively kept relevant information
from potential treating physicians, the FDA and the
general public, including Plaintiff, regarding the
safety of amiodarone in terms of its “off-label” use.
More specifically, Defendant omitted and failed to
provide the specific warnings of serious life
threatening side effects such as pulmonary fibrosis,
outlined in the Medication Guide, because the
Medication Guides were not distributed in such a
manner by the Defendant to insure that the
Medication Guide and its warnings were provided to
McDaniel each time McDaniel picked up his
prescription from his pharmacist at the Naval Branch
Health Clinic, Millington, Tennessee beginning in

77a
May, 2015. Omission of the specific warnings and
details that could have saved Plaintiff’s decedent’s
life included the fact that amiodarone could “cause
serious side effects that can lead to death including:
lung problems; liver problems; worsening heartbeat
problems; and thyroid problems”29 and that
amiodarone “should only be used in people with lifethreatening heartbeat problems called ventricular
arrhythmias, for which other treatments did not
work or were not tolerated.”30 The Medication Guide
specifically notes in pertinent part that amiodarone is
a drug of last resort and only to be used in situations
involving ventricular tachycardia. Defendant and its
agents failed to provide this critical and life saving
information to McDaniel and failed to put in place a
process that would protect McDaniel by insuring he
received the life saving information and did not rely
on false or misleading information or the omission of
important safety information by Defendant. The
failure by Defendant and its agents to provide the
critical information and content of the Medication
Guide, or provide some process or procedure that
insured distribution of the omitted information to
the Plaintiff’s decedent, fraudulently misrepresented
the safety of the drug for patients such as McDaniel
and induced McDaniel to take the drug, enriching
the Defendant while causing the death of McDaniel.
119. By failing to distribute key warnings of
the Medication Guide in a manner that would insure
direct distribution to the Plaintiff’s decedent,
Defendant expressly denied that amiodarone created
an increased risk of injury and took affirmative steps
29

Amiodarone Medication Guide

30

Id.

78a
to prevent the discovery and dissemination of any
evidence on the increased likelihood of injury from
amiodarone in terms of its “off-label” use. By failing
to provide Mediation Guides sufficient to insure that
Plaintiff’s decedent would receive the important
information and warnings clearly stated in the
Medication Guide as related to his physical condition
and health the Defendant kept information from the
Plaintiff’s decedent that was key to his health and
safety and in fact caused his untimely and painful
death.
120. Defendant did not accurately report the
results of adverse events by withholding from the
FDA, physicians, Plaintiff, and the public, the truth
regarding amiodarone failures for years, all the
while undertaking a major advertising campaign to
sell amiodarone. Defendant received reports of
amiodarone’s side effects attributable to “off-label”
use from various sources, and withheld this
information and maintained it in their possession,
while continuing to sell amiodarone to individuals
such as Plaintiff’s decedent.
121. Defendant effectively deceived and
misled the scientific and medical communities
regarding the risks and benefits of amiodarone.
Defendant failed to fully inform physicians, patients,
including Plaintiff’s decedent, and the public of the
true defects in amiodarone when used for “off label”
purposes as with the Plaintiff’s decedent, which were
known to Defendant, and continued to assure
physicians and patients that amiodarone was
adequate and reliable for the purpose intended by
the continuous offering for sell of this dangerous
product through its website and distribution centers.

79a
122. Through the materials they disseminated
via Defendants product website and distribution
centers,
Defendant
falsely
and
deceptively
misrepresented or omitted a number of material facts
regarding amiodarone as set forth in detail above and
as particularly outlined in the Medication Guide.
123. Defendant possessed evidence and
knowledge that amiodarone caused serious and life
threatening adverse side effects such as those suffered
by Plaintiff’s decedent. Nevertheless, Defendant
continued to market amiodarone to atrial fibrillation
patients such as Plaintiff’s decednt by providing false
and misleading information with regard to its safety to
Plaintiff’s decedent and Plaintiff’s decedent’s treating
physician and by not provided the information
contained in the mandated Medication Guide..
124. Among
Defendant’s
numerous
misrepresentations and misleading omissions to
Plaintiff’s decedent, Plaintiff’s decedent’s physician
and pharmacist and the general public are Defendant’s
assurances that amiodarone was a safe and effective
drug for the treatment of atrial fibrillation.
Defendant made such statements even after they
became
aware
of
numerous
and
serious
complications with amiodarone. Defendant did not
reveal (and instead actively concealed) their
knowledge of numerous and serious complications
with amiodarone. Despite their knowledge of serious
problems with amiodarone, Defendant continued and
continue to market amiodarone to atrial fibrillation
patients such as Plaintiff’s decedent and does so
without insuring that the important warnings outlined
in the Medication Guide are provided as mandated.

80a
125. Defendant also concealed from Plaintiff’s
decedent and Plaintiff’s decedent’s pharmacist and
physician the material facts they were obligated to
disclose, including that amiodarone was not FDA
approved for the treatment of atrial fibrillation, was
not an appropriate “first line of treatment” for atrial
fibrillation, is required to be accompanied by a
Medication Guide intended to warn the consumer of
the serious, life-threatening complications from the
use of amiodarone and was approved by the FDA for
a very limited use without any associated clinical
trials establishing the safety and efficacy of the drug.
126. Defendant engaged in all the acts and
omissions described above with the intent that
Plaintiff’s decedent and his physician and pharmacist
reasonably would rely on the misrepresentation,
deception and concealment of material facts such as
those outlined in the Medication guide in deciding to
use amiodarone rather than another product for the
control of atrial fibrillation.
127. Plaintiff’s decedent and/or Plaintiff’s
decedent’s pharmacist, and physician justifiably relied
to their detriment on Defendant’s misrepresentations
as set out above. The reliance proximately caused
the injuries and damages described in this Amended
Complaint.
128. As a direct and proximate result of
Defendant’s wrongful conduct, Plaintiff’s decedent
sustained severe physical injuries, economic losses and
other damages, including death. As a direct result,
Plaintiff expended money for medical bills and
expenses. Plaintiff is entitled to compensatory and
exemplary damages in an amount to be proven at trial.

81a
SIXTH CAUSE OF ACTION
WRONGFUL DEATH
129. Plaintiff incorporates by reference all
other paragraphs of this Amended Complaint as if
fully set forth herein.
130. The death of Johnny McDaniel was
directly and proximately caused by the negligent
actions of Upsher-Smith in the off-label and other
negligent promotional and marketing activities
associated with the sale of amiodarone and the
negligent actions of Defendant Upsher-Smith for
their failure to warn by providing up to date and
required labeling and to provide Medication Guides
to distributors for the ultimate distribution of the
Medication Guides to patients as required by FDA
rules and regulations and as generally related to the
manufacture, marketing, distribution and sale of
Cordarone®/amiodarone as described herein.
WHEREFORE, Plaintiff, demands judgment
against the Defendant for compensatory damages,
together with applicable interest, costs of suit,
attorneys’ fees and all such other relief as the Court
deems proper.
VIII. Demand For Jury Trial
Plaintiff in the above-styled case hereby
demands a trial by jury of all issues so triable as a
matter of right.
This the 6th day of February, 2017
Respectfully Submitted,
By: /s/ E. Kirk Wood
Attorney for Plaintiff

82a
OF COUNSEL:
E. Kirk Wood
Wood Law Firm, LLC
P. O. Box 382434
Birmingham, AL 35238-2434
Telephone: 205-612-0243
Facsimile: 866-747-3905
Email: kirk@woodlawfirmllc.com
Dustin Colt Childers
Langston & Lott, P.A.
100 South Main Street
Booneville, MS 38829
Telephone: 662-728-9733
Email: dchilders@langstonlott.com
CERTIFICATE OF SERVICE
This is to certify that on the 6th day of
February, 2017, a copy of the foregoing was served
on the following parties to this proceeding via
Electronic Filing and/or U.S. Mail, properly
addressed and first class postage pre-paid:
Eric E. Hudson
Kyle R. Cummins
Butler, Snow, O’Mara, Stevens & Canada, PLLC
6075 Poplar Avenue, Suite 500
Memphis, TN 38119
Telephone: 901-680-7200
Email: eric.hudson@butlersnow.com
Email: kyle.cummins@butlersnow.com
/s/ E. Kirk Wood
E. Kirk Wood, Attorney for the Plaintiff

83a
EXHIBIT 1
IN THE UNITED STATES DISTRICT COURT
FOR THE WESTERN DISTRICT OF
TENNESSEE WESTERN DIVISION
RITA McDANIEL,
Individually and as Personal
Representative of the Estate
of JOHNNY F. McDANIEL,
Deceased,

)
)
)
)
)
)
Plaintiff,
)
No.
) 2:16-cv-02604-JPM-cgc
v.
)
)
)
UPSHER-SMITH
)
PHARMACEUTICALS, INC.,)
)
Defendant.
)
)
ORDER GRANTING IN PART AND
DENYING IN PART DEFENDANT’S
MOTION TO DISMISS
Before the Court is Defendant Upsher-Smith
Pharmaceuticals, Inc.’s Motion to Dismiss, filed
August 22, 2016. (ECF No. 17.) For the reasons
stated below, the Motion to Dismiss is GRANTED in
part and DENIED in part.

84a
I.

BACKGROUND
A.

Factual Background

Rita McDaniel brings an action on behalf of
the estate of Johnny F. McDaniel for wrongful death.
Plaintiff asserts that her husband was prescribed
200 mg amiodarone tablets in May 2015 for
treatment of his non-life-threatening atrial
fibrillation. (Compl. at 11, ECF No. 1.)
The
amiodarone tablets were manufactured and sold by
Upsher-Smith Pharmaceuticals, Inc as a generic
version of Wyeth’s Cordarone under the name
Paecerone. (Id. at 12; Def.’s Mem. for Mot. to
Dismiss at 1-2, ECF No. 17-1.) Wyeth has received
approval from the Food and Drug Administration
(FDA) to market and sell amiodarone as a drug of
last resort for patients suffering from lifethreatening ventricular fibrillation and ventricular
tachycardia. (Compl. at 4, ECF No. 1; Def.’s Mem. for
Mot. to Dismiss at 2, ECF No. 17-1.) Plaintiff
asserts that Defendant promoted the “off-label” use
of amiodarine as an initial treatment for patients
with atrial fibrillation, though Defendant was aware
that such a use had not received FDA approval and
may result in serious pulmonary illness, toxicity,
and death. (Id. at 4-5.) Plaintiff asserts that her
husband was given the amiodarone for off-label use,
though he was not in a situation of “last resort” as to
the management of his atrial fibrillation and his
condition was not life threatening. (Id. at 5, 11.) Mr.
McDaniel received his medication at the Naval
Branch Health Clinic.
(Id.)
Plaintiff further
asserts that Mr. McDaniel did not receive the
FDA Medication Guide and current warning labels
for the prescriptions. (Id. at 11.) Plaintiff alleges

85a
that Mr. McDaniel developed several pulmonary
complications as a result of the inappropriate offlabel use. (Id. at 15.) Mr. McDaniel was admitted to
Methodist LeBonheur Hospital on June 22, 2015 and
died on July 22, 2016 at the age of 78. (Id. at 5, 15.)
Plaintiff asserts six claims: (1) strict liability/failure
to warn, (2) negligence – failure to warn, (3)
negligence – marketing and sales, (4) negligence per
se, (5) fraud and deceit, and (6) wrongful death. (Id.
at 26-36.) Plaintiff alternatively requests that she
be allowed to file an amended complaint. (Pl.’s Resp.
at 17-20, ECF No. 23.)
B.

Procedural Background

Plaintiff filed a Complaint on July 21, 2016.
(ECF No. 1.) Defendant filed a Motion to Dismiss on
August 22, 2016. (ECF No. 17.) On September 9,
2016, the Court entered an order staying all
deadlines in the case and continuing the Rule 16
scheduling conference pending the Court’s ruling on
the instant Motion to Dismiss. (ECF No. 22.)
Plaintiff filed a response on September 21, 2016.
(ECF No. 23.) Defendant filed a reply on October 5,
2016. (ECF No. 24.)
II.

Legal Standards
A.

Motion to Dismiss

A court may dismiss a claim for “failure to
state a claim upon which relief can be granted.” Fed.
R. Civ. P. 12(b)(6). “To survive a motion to dismiss, a
complaint must contain sufficient factual matter,
accepted as true, to ‘state a claim to relief that is
plausible on its face.’” Ashcroft v. Iqbal, 556 U.S.

86a
662, 678 (2009) (quoting Bell Atl. Corp. v. Twombly,
550 U.S. 544, 570 (2007)).
A complaint must contain a short and
plain statement of the claim showing
that the pleader is entitled to relief. . . .
A claim is facially plausible when the
pleaded factual content allows the court
to draw the reasonable inference that
the defendant is liable for the
misconduct alleged. . . . [T]he court
need not accept as true allegations that
are conclusory or require unwarranted
inferences based on the alleged facts.
Newberry v. Silverman, 789 F.3d 636, 640 (6th Cir.
2015) (citations and internal quotation marks
omitted). “Plausibility is not the same as probability,
but it requires ‘more than a sheer possibility that a
defendant has acted unlawfully.’” Mik v. Fed. Home
Loan Mortg. Corp., 743 F.3d 149, 157 (6th Cir. 2014)
(quoting Iqbal, 556 U.S. at 678). A court must
“construe[] the complaint in a light most favorable to
the plaintiff.” HDC, LLC v. City of Ann Arbor, 675
F.3d 608, 611 (6th Cir. 2012).
In alleging fraud, Federal Rule of Civil
Procedure 9(b) requires a plaintiff to plead with
particularity “the time, place, and content of the
alleged misrepresentation on which he or she relied;
the fraudulent scheme; the fraudulent intent of the
defendants; and the injury resulting from the fraud.”
Fed. R. Civ. P. 9(b); Sanderson v. HCA-The
Healthcare Co., 447 F.3d 873, 877 (6th Cir. 2006)
(quoting Yuhasz, 341 F.3d 559, 563 (6th Cir. 2003));
Glassner v. R.J. Reynolds Tobacco Co., 223 F.3d 343,

87a
346 (6th Cir. 2000) (“[A] complaint alleging fraud
must allege with particularity those circumstances
constituting fraud”). At a minimum, a plaintiff must
“allege the time, place and contents of the
misrepresentation(s) upon which he relied.” Bender
v. Southland Corp., 749 F.2d 1205 (6th Cir. 1984).
B.

Federal Preemption

The Supremacy Clause establishes the
concept of federal preemption, stating that federal
law “shall be the supreme Law of the Land.” U.S.
Const., Art. VI, cl. 2. State law is preempted by
federal law if: 1) Congress expressly states its
intention to preempt state law; 2) Congress intends
for federal law to “occupy the field”; or 3) it is
impossible to comply with both state and federal
requirements, or compliance with state law would
create an obstacle to the achievement of Congress’s
purposes. Crosby v. National Foreign Trade Council,
530 U.S. 363, 373-74 (2000).
In Buckman, the Supreme Court found that
the plaintiffs’ state law claims were preempted
where the claims arose solely from the alleged
violation of FDCA requirements, rather than
parallel state-law causes of action. Buckman Co. v.
Plaintiff’s Legal Committee, 531 U.S. 341 (2001).
The Supreme Court stated that “certain state-law
causes of actions that parallel federal safety
requirements” may be allowed; however, it is
incorrect that “any violation of the FDCA will
support a state-law claim.” Id. at 352. The Court
emphasized that the plaintiffs were not “relying on
traditional state tort law which had predated the
federal enactments in question[]” but that “the

88a
existence of these federal enactments is a critical
element in their case.” Id. at 353. In In re Darvocet,
the Sixth Circuit found that a plaintiff’s claims for
statutory negligence were preempted by Buckman
as they were premised on the defendants’ violation
of the FDCA. In re Darvocet, Darvon, and
Propoxyphene Products Liability Litigation, 756
F.3d 917 (6th Cir. 2014).
The Sixth Circuit
reiterated that “the FDA has the exclusive power to
enforce the FDCA” and “there is no private right
to enforce the statute.” Id. at 936. If a claim would
not exist in the absence of the FDCA, it is
impliedly preempted. Loreto v. Proctor & Gamble
Co., 515 Fed.Appx. 576, 579 (6th Cir. 2013) (“This
theory of liability depends entirely upon an FDCA
violation . . . the theory is impliedly preempted by
federal law.”).
1. Failure to Warn
The requirement to provide a medication
guide is found in the Food, Drug and Cosmetic Act
(FDCA), 21 C.F.R. § 208.24. (Compl. at 12-14, ECF
No. 1.) 21 C.F.R. § 208.24 requires that “[e]ach
manufacturer who ships a container of drug product
for which a Medication Guide is required under this
part is responsible for ensuring that Medication
Guides are available for distribution to patients . . .”
21 C.F.R. § 208.24(b).
Additionally, the FDA
requires that “Medication Guides be issued with
certain prescribed drugs . . . when the Agency
determines that: certain information is necessary to
prevent serious adverse effects, patient decisionmaking should be informed by information about a
known serious side effect with a product, or patient
adherence to directions for the use of a product

89a
are essential to its effectiveness.”
Medication
Guides, U.S. Food & Drug Administration,
http://www.fda.gov/Drugs/DrugSafety/ucm085729.htm
(including Cordarone and Pacerone on the list of
products for which Medication Guides are
available).1
2. “Off-Label” Promotion
The concept of “off-label use and promotion” is
derived from and defined by the FDCA regulatory
system and has no state- law equivalent. Hafer v.
Medtronic, Inc., 99 F.Supp.3d 844, 857 (W.D. Tenn.
2015). Off-label use “is an accepted and necessary
corollary of the FDA’s mission to regulate in this
area without directly interfering with the practice of
medicine.” Id. at 858 (quoting Buckman, 531 U.S. at
The parties cite cases from other circuits with similar
facts. Defendant cites Perdue, a case in which the Eastern
District of North Carolina found that, since the requirement to
provide a medication guide is based solely in the requirements
of the FDCA and related regulations and not under the state
common law, the plaintiff’s claims based upon failure to provide
such a guide were preempted under Buckman. Perdue v.
Wyeth Pharmaceuticals, Inc., 2016 WL 3951091, at *5
(E.D.N.C. July 20, 2016). In contrast, Plaintiff cites Eckhardt
v. Qualitest Pharmaceuticals, Inc., a case in which the Fifth
Circuit stated that a claim against a generic drug
manufacturer for failure to provide FDA-approved warnings
would be a violation of both state and federal law and therefore
would not be preempted. Eckhardt v. Qualitest Pharms., Inc.,
751 F.3d 674 (5th Cir. 2014) (affirming the district court’s
dismissal of the plaintiff’s claim nevertheless, as the plaintiff
failed to adequately allege the failure to warn claim); see also
Rusk v. Wyeth-Ayerst Laboratories, Inc., 2015 WL 3651434
(W.D. Tex. June 11, 2015) (applying Eckhardt to hold that a
claim for failure to provide a medication guide was not
preempted). The Court considers the reasoning in such cases
only persuasive and not binding authority.
1

90a
350). The FDCA does not provide a private cause of
action; therefore, any claim based solely on off-label
promotion is impliedly preempted. See Hafer, 99
F.Supp.3d at 856-57; Merrell Dow Pharm. Inc. v.
Thompson, 478 U.S. 804 (1986) (holding that the
FDCA does not provide a private cause of action).
Even if the claim is formally asserted under state
law, the claim may still be preempted if it is “in
substance” a claim for violating the FDCA. Hafer,
99 F. Supp. 3d at 857.
3. Fraud and Deceit
In Hafer, the Western District of Tennessee
found that the plaintiff’s claim for fraudulent
concealment, misrepresentation, and fraud during
the promoting and marketing of the product was
not preempted. Hafer, 99 F.Supp.3d at 859. The
court reasoned that the plaintiff’s claim of
misrepresentations during promoting and marketing
did not provide requirements “different from, or in
addition to” federal requirements and so avoided
express preemption. Id. The court also noted that
Plaintiff’s claim was “independently supported by
traditional state laws against false and misleading
advertising, thereby avoiding implied preemption.”
Id. “[S]tate fraud-based claims ‘are parallel or
genuinely equivalent to federal law.’” Id. (quoting
Schouest v. Medtronic, Inc., 13 F.Supp.3d 692, 704
(S.D. Tex. 2014)). Similarly, in Loreto, the Sixth
Circuit found that a claim of false or misleading
statements in marketing of the product was not
preempted as the theory “relie[d] solely on traditional
state tort law predating the FDCA, and would exist
in the absence of the Act.” Loreto v. Proctor &
Gamble Co., 515 Fed.Appx. 576 (6th Cir. 2013).

91a
C.

Motions for Leave to Amend

“Federal Rule of Civil Procedure 15(a)(2)
provides that leave to amend shall be freely given
when justice so requires.” Riverview Health Inst.
LLC v. Med. Mut. of Ohio, 601 F.3d 505, 520 (6th
Cir. 2010). Rule 15 “plainly embodies a liberal
amendment policy,” Morse v. McWhorter, 290 F.3d
795, 800 (6th Cir. 2002), that “reinforces the
principle that cases should be tried on their merits
rather than the technicalities of pleadings,” Inge v.
Rock Fin. Corp., 388 F.3d 930, 937 (6th Cir. 2004)
(quoting Moore v. City of Paducah, 790 F.2d 557, 559
(6th Cir. 1986)) (alterations and internal quotation
marks omitted).
A motion for leave to amend a complaint “may
be denied where there is undue delay, bad faith or
dilatory motive on the part of the movant, repeated
failure to cure deficiencies by amendments
previously allowed, undue prejudice to the opposing
party by virtue of allowance of the amendment,
futility of amendment, etc.” Riverview, 601 F.3d at
520 (quoting Foman v. Davis, 371 U.S. 178, 182
(1962)) (internal quotation marks omitted).
A
proposed amendment is futile “if the court concludes
that the pleading as amended could not withstand a
motion to dismiss.” Midkiff v. Adams Cnty. Reg’l
Water Dist., 409 F.3d 758, 767 (6th Cir. 2005)
(quoting Martin v. Associated Truck Lines, Inc., 801
F.2d 246, 249 (6th Cir. 1986)).
III.

Analysis

Defendant argues that the Complaint must be
dismissed on grounds of federal preemption. (Mot. to

92a
Dismiss, ECF No. 17.) Defendant also asserts that
Plaintiff’s claim of fraud and deceit fails to satisfy
the pleading standards of Federal Rule of Civil
Procedure 9(b). (Mem. for Mot. to Dismiss at 17,
ECF No. 17-1.)
A.

Failure to Warn

Plaintiff makes claims of strict products
liability – failure to warn (Count 1) and negligence –
failure to warn (Count 2), stating that Defendant
failed to provide “sufficient instructions or warnings”
of the “potential risks and side effects of
amiodarone,” “including but not limited to failing to
ensure [Plaintiff] was timely provided the
Medication Guide.” (Compl. at 27-28, ECF No. 1.) In
his Response to the Motion to Dismiss, Plaintiff
clarified that he “does not allege that the contents of
the labeling should have been changed,” rather, he
“alleges that the Medication Guide and its warnings
were not provided to him in accordance with the
FDA mandate.” (Pl.’s Resp. at 12, ECF No. 23.)
The requirement to provide a medication
guide is found in the FDCA. Plaintiff has not cited
parallel state-law safety requirements to provide a
medication guide under Tennessee law. Plaintiff’s
claims are premised upon Defendant’s violation of
federal standards for the distribution of medication
guides set forth in the FDCA and would not exist “in
the absence of the FDCA.” Buckman, 531 U.S. at
353. Therefore, Plaintiff’s claims based upon failure
to warn due to failure to provide a medication guide
are preempted under Buckman. The Court grants
Defendant’s motion to dismiss on Plaintiff’s failureto-warn claims (Counts 1 and 2).

93a
B.

“Off-Label” Promotion

Plaintiff claims that Defendant marketed and
sold amiodarone in an “off-label” manner as a “first
line” drug to be used in the treatment of atrial
fibrillation, rather than for uses approved by the
FDA, thus asserting that Defendant is liable under
the theories of negligence and negligence per se
(Counts 3 and 4). (Compl. at 30-32, ECF No. 1.)
Plaintiff’s claims are impliedly preempted by
the FDCA as both claims are based upon off-label
use and promotion, which is a concept that is
entirely derived from and defined by the FDCA in
substance. See Hafer, 99 F.Supp.3d at 857. As the
concept of “off-label” is entirely federal, Plaintiff’s
claims would not exist in the absence of the FDCA
and are therefore impliedly preempted under
Buckman. The Court therefore grants Defendant’s
Motion to Dismiss with regard to Counts 3 and 4.
C.

Fraud and Deceit

Plaintiff alleges that Defendant misled him,
his physician, scientific and medical communities,
the FDA, and the public regarding the safety risks of
amiodarane (Count 5). (Compl. at 32-35, ECF No. 1.)
Plaintiff alternatively requests that she be allowed
to file an amended complaint. (Pl.’s Resp. at 17-20,
ECF No. 23.)Defendant argues that “Plaintiff has
failed to plead her fraud-based claims with the
particularity required under Rule 9(b)” and states
that the Court should deny Plaintiff’s request for
leave to amend the Complaint as any amendment
would be futile. (Def.’s Reply at 7-9, ECF No. 24.)

94a
Plaintiff’s claim of fraud and deceit is not
expressly or impliedly preempted. State claims of
fraud and deceit do not provide requirements in
conflict with federal requirements. State laws
traditionally prohibit fraud and deceit in advertising
and marketing as well. Plaintiff, however, fails to
allege fraud with the particularity required by
Federal Rule of Civil Procedure 9(b). Plaintiff has
not included facts regarding the alleged affirmative
misrepresentations made during the marketing of
the product on which Plaintiff, doctors, or members
of the public relied.
Rule 15 contains a liberal amendment policy.
Defendant asserts that any amendment to the
Complaint would be futile. The Court, however, finds
that Defendant would not be unduly prejudiced by
virtue of allowing amendment. The Court also finds
that amendment of Count 5 would not be futile as it
would be possible for Plaintiff to allege additional
facts that plead her fraud claim with particularity
and the fraud claim would not be preempted by
federal law. The Court therefore denies Defendant’s
Motion to Dismiss with regard to Count 5 and grants
Plaintiff leave to file an amended complaint to allege
fraud and deceit with particularity.
D.

Wrongful Death

Plaintiff brings a claim against Defendant for
wrongful death, alleging that the death of Johnny
McDaniel was caused by Defendant’s negligence
(Count 6). (Compl. at 35-36, ECF No. 1.)
Defendant has not addressed the wrongful
death claim in its Motion to Dismiss. The wrongful

95a
death claim contains sufficient factual matter to
meet the plausibility requirements of Rule 12(b)(6).
Defendant’s Motion to Dismiss is denied with
regards to Count 6 of the Complaint.
IV.

CONCLUSION

For the reasons stated above, Defendant’s
Motion to Dismiss (ECF No. 17) is GRANTED in
part and DENIED in part. Counts 1 through 4 of the
Complaint are dismissed with prejudice. The Court
denies Defendant’s Motion to Dismiss Count 6.
Plaintiff may file an amended complaint regarding
Count 5 within ten (10) calendar days of the entry of
this Order.
IT IS SO ORDERED, this 26th day of
January, 2017.
/s/ Jon P. McCalla
JON P. McCALLA
UNITED STATES DISTRICT JUDGE

96a
U.S. CONST. art. VI
All debts contracted and engagements entered into,
before the adoption of this Constitution, shall be as
valid against the United States under this
Constitution, as under the Confederation.
This Constitution, and the laws of the United States
which shall be made in pursuance thereof; and all
treaties made, or which shall be made, under the
authority of the United States, shall be the supreme
law of the land; and the judges in every state shall
be bound thereby, anything in the Constitution or
laws of any State to the contrary notwithstanding.
The Senators and Representatives before mentioned,
and the members of the several state legislatures,
and all executive and judicial officers, both of the
United States and of the several states, shall be
bound by oath or affirmation, to support this
Constitution; but no religious test shall ever be
required as a qualification to any office or public
trust under the United States.
21 U.S.C. § 337
(a) Except as provided in subsection (b), all such
proceedings for the enforcement, or to restrain
violations, of this chapter shall be by and in the
name of the United States. Subpoenas for witnesses
who are required to attend a court of the United
States, in any district, may run into any other
district in any proceeding under this section.
*

*

*

97a
21 C.F.R. § 208.24 Distributing and dispensing
a Medication Guide.
(a) The manufacturer of a drug product for which
a Medication Guide is required under this part shall
obtain FDA approval of the Medication Guide before
the Medication Guide may be distributed.
(b) Each manufacturer who ships a container of
drug product for which a Medication Guide is
required under this part is responsible for ensuring
that Medication Guides are available for distribution
to patients by either:
(1) Providing Medication Guides in sufficient
numbers to distributors, packers, or authorized
dispensers to permit the authorized dispenser to
provide a Medication Guide to each patient
receiving a prescription for the drug product; or
(2) Providing the means to produce Medication
Guides in sufficient numbers to distributors,
packers, or authorized dispensers to permit the
authorized dispenser to provide a Medication
Guide to each patient receiving a prescription for
the drug product.
*

*

*

98a
[ENTERED: August 3, 2018]
UNITED STATES COURT OF APPEALS
FOR THE FOURTH CIRCUIT
1100 East Main Street, Suite 501,
Richmond, Virginia 23219
www.ca4.uscourts.gov
August 3, 2018
TENTATIVE CALENDAR ORDER
No. 17-2263, Latham
Bean
v.
Upsher-Smith
Pharmaceauticals, 4:16-cv-01696-RBH
This case has been tentatively calendared for oral
argument as follows:
Argument Session: 10/30/18 - 11/1/18
Additional Copies of Briefs & Appendices Due:
08/08/2018
Motions and Notice of Conflicts Due: 08/13/2018
The court requires a total of four paper copies of briefs
and appendices in cases that are tentatively calendared
for oral argument. If you previously filed one copy of
your brief or appendix, you must now file three
additional copies. If you have not yet filed your brief,
you must file four paper copies and an electronic copy.
The requirement of four paper copies applies to all briefs
and appendices, including: Amicus Briefs, Intervenor
Briefs, Sealed Versions of Briefs, Public Versions of
Briefs, Joint Appendices, Supplemental Appendices,
Sealed Volumes of Joint and Supplemental Appendices,

99a
and Paper Copies of the Administrative Record
adopted by Petitioner or Appellant as an Appendix.
All paper copies must be identical as to cover,
binding, page numbering, and other formatting, and
must match the electronic copy. No ECF entry is made
by counsel when filing additional copies of paper briefs
and appendices.
Any motions that would affect the scheduling of
argument, including motions to continue, submit on
the briefs, or voluntarily dismiss, must be filed by the
due date shown above and must state whether
opposing counsel consents to the requested relief.
Any scheduling conflict with dates during the
argument session must be filed by the due date
shown above, using the entry Notice re: conflict with
proposed argument dates (form available at
http://www.ca4.uscourts.gov/court-forms-fees). Do not
file the form if you have no conflicts.
You will be notified either that your case has been
scheduled for a date certain during the session or
continued to the next available session. After a case has
been scheduled for argument, any motion that would
affect the argument date must show good cause for the
requested relief and that the relief could not have been
requested within the period set for notice of conflicts.
The identity of the panel hearing a case is not disclosed
until the morning of argument.
For questions regarding scheduling of argument,
please call 804-916-2714. For questions regarding
required copies, please call 804-916-2700.
/s/ PATRICIA S. CONNOR, CLERK
By: Joseph L. Coleman, Jr., Calendar Clerk

100a
[ENTERED: October 16, 2018]
UNITED STATES COURT OF APPEALS
FOR THE FOURTH CIRCUIT
OFFICE OF THE CLERK
1100 East Main Street, Suite 501
Richmond, Virginia 23219-3517
www.ca4.uscourts.gov
Patricia S. Connor

Telephone

Clerk

804-916-2700
October 16, 2018

TENTATIVELY CALENDARED CASE
CONTINUED
No. 17-2263, Latham
Bean
v.
Upsher-Smith
Pharmaceauticals, 4:16-cv-01696-RBH
TO: Counsel
You were previously notified of the tentative
assignment of this case to an oral argument session.
For scheduling reasons, your case has been
continued. You will receive further notice from the
court as soon as your case is assigned to another
argument session.
Joseph L. Coleman, Jr.
Calendar Clerk
804-916-2714

